  U.S. Department of Education

Office of Inspector General




Semiannual Report to Congress: No. 52

    October 1, 2005 - March 31, 2006
                            UNITED STATES DEPARTMENT OF EDUCATION
                                                OFFICE OF INSPECTOR GENERAL

                                                                                                               THE INSPECTOR GENERAL




                                                                                           April 27, 2006
Dear Madam Secretary:


I am pleased to submit to you, in accordance with the Inspector General Act of 1978 (Public Law 95-
452, as amended, section 5(b)), this semiannual report on the activities of the Department's Office of
Inspector General for the six-month period ending March 31, 2006. This report highlights our most
significant work from the last six months, and reflects our strong commitment to assisting the
Department in improving its programs and operations.


The Inspector General Act requires you to transmit this report within 30 days to the appropriate
Congressional committees and subcommittees, together with a report containing any comments you
wish to make. Your report should also include the statistical tables specific in section 5(b)(2) and (3)
of the Inspector General Act, and a statement with respect to audit reports on which management
decisions have been made, but final action has not been taken, as specified in section 5(b)(4) of the
Inspector General Act.


I look forward to working with you in furthering our goals and achieving our mission.




                                                                     John P. Higgins, Jr.

Enclosure

                  400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510
            Our mission is to ensure equal access to education and to promote educational excellence throughout the nation.
                                                                     CONTENTS

INSPECTOR GENERAL’S MESSAGE TO CONGRESS

Overview .................................................................................................................................................... 1

HURRICANE RECOVERY EFFORTS ................................................................................................ 3
  HERA Portion of Single Audit Compliance Supplement ...................................................................... 3

ACCOUNTABILITY IN STATE AND LOCAL PROGRAMS ........................................................... 4
  Migrant Education ................................................................................................................................. 4
     Georgia .............................................................................................................................................. 4
     Oklahoma .......................................................................................................................................... 4
  No Child Left Behind ............................................................................................................................. 5
     Compliance Requirements ................................................................................................................ 5
     Supplemental Educational Services .................................................................................................. 5
     Performance Data .............................................................................................................................. 6
  Individuals With Disabilities Education Act .......................................................................................... 7
  Grantee Accountability .......................................................................................................................... 7
     William Floyd Union Free School District ....................................................................................... 7
     Education Leaders Council ............................................................................................................... 8
     Pittsburg Pre-School and Community Council ................................................................................. 9
     New York City Department of Education ........................................................................................ 9
  Monitoring and Administration ............................................................................................................. 9
     State Scholars Initiative .................................................................................................................... 9
     Consolidating Funds in Schoolwide Programs ............................................................................... 10
     Adherence to Matching Requirements ............................................................................................ 10
  Postsecondary Programs ...................................................................................................................... 11
     Overlapping Grant Programs .......................................................................................................... 11
     Sheldon Jackson College ................................................................................................................ 11
     Indiana State University .................................................................................................................. 12
  Identifying and Investigating Corrupt Officials ................................................................................... 12
     American Samoa ............................................................................................................................. 12
     Mississippi ...................................................................................................................................... 12
     Pennsylvania ................................................................................................................................... 12

ACCOUNTABILITY IN STUDENT FINANCIAL ASSISTANCE PROGRAMS .......................... 13
  Return of Funds for Withdrawn Students ............................................................................................ 13
     University of Phoenix ..................................................................................................................... 13
     Florida Agriculture and Mechanical University ............................................................................. 14
  90-10 Rule ............................................................................................................................................ 14
     Career Education Corporation ........................................................................................................ 14
  Federal Student Aid Operations ........................................................................................................... 15
     Death and Total and Permanent Disability Discharges .................................................................. 15
     Initial Exceptional Performance Applications ................................................................................ 15
     Pseudo Social Security Numbers .................................................................................................... 15
  Investigating Fraud and Abuse ............................................................................................................ 16
         Fraud By School Officials .............................................................................................................. 16
         Fraud by Staff of Corporations Doing Business with FSA ............................................................ 16
         Fraud by Students/Individuals ........................................................................................................ 17
         Foreign School Fraud ...................................................................................................................... 17
         Identity Theft .................................................................................................................................. 17

FINANCIAL MANAGEMENT AND INTERNAL
OPERATIONS ACCOUNTABILITY .................................................................................................. 18
  Financial Management ......................................................................................................................... 18
     Financial Statement Audits ............................................................................................................. 18
     Additional Work ............................................................................................................................. 18
     Drug Control Funds ........................................................................................................................ 19
  Internal Operations ............................................................................................................................... 19
     IT Security ...................................................................................................................................... 19
     IT Contingency Planning Program for Asset Classification ........................................................... 19
     Telecommunications Billing Accuracy ........................................................................................... 20
     Internal Audit Followup Process .................................................................................................... 20
     Purchase Cards ................................................................................................................................ 20
     Voluntary Leave Transfer Program ................................................................................................ 21

OTHER NOTEWORTHY ACTIVITIES ............................................................................................ 21
  Nonfederal Audits ................................................................................................................................ 21
  Guide To Improving Grant Accountability .......................................................................................... 22
  President's Council on Integrity and Efficiency .................................................................................. 22
     PCIE Audit Committee ................................................................................................................... 22
     PCIE IT Roundtable ........................................................................................................................ 23
     Work Group on Federal Financial Statements ................................................................................ 23
  GAO Advisory Council ....................................................................................................................... 23
     Government Auditing Standards .................................................................................................... 23

Reporting Requirements of the Inspector General Act, as amended ................................................ 25
Table 1: Recommendations Described in Previous Semiannual Reports on
           Which Corrective Action Has Not Been Completed ............................................................ 26
Table 2: OIG Audit Services Reports on Department Programs and Activities
           (October 1, 2005, to March 31, 2006) .................................................................................. 27
Table 3: Other OIG Reports on Department Programs and Activities
           (October 1, 2005, to March 31, 2006) .................................................................................. 31
Table 4: Inspector General Issued Audit Reports with Questioned Costs .............................................. 32
Table 5: Inspector General Issued Audit Reports with Recommendations For Better Use of Funds..... 33
Table 6: Unresolved Reports Issued Prior to October 1, 2005 ............................................................... 33
Table 7: Statistical Profile : October 1, 2005, to March 31, 2006 .......................................................... 41
        INSPECTOR GENERAL’S MESSAGE TO CONGRESS

We are pleased to provide this semiannual report on the activities and accomplishments of the Office of
Inspector General (OIG), U.S. Department of Education (Department) from October 1, 2005 to March 31,
2006. The audits, inspections, investigations, and other activities highlighted in this report illustrate our
on-going commitment to promoting accountability, efficiency, and effectiveness in Federal education
programs and operations. America’s students and taxpayers deserve nothing less.

Over the last six months, OIG issued 60 audit, inspection and related reports, memoranda and letters. We
identified over $1.5 million in questioned costs, over $5.6 million in unsupported costs, and over $10
million in funds that could be put to better use. We closed 39 investigations, with over $4.3 million in
recoveries, restitution, fines, settlements, and forfeitures/seizures. You will find more information on these
accomplishments highlighted in the pages of our report.

As you know, on December 30, 2005, President Bush signed the Department of Defense, Emergency
Supplemental Appropriations to Address Hurricanes in the Gulf of Mexico, and Pandemic Influenza Act,
2006, (Public Law 109-148), that included the Hurricane Education Recovery Act (HERA). HERA
provides $1.6 billion for education-related relief and recovery efforts in the wake of Hurricanes Katrina
and Rita. We consider stewardship of hurricane-related funds to be one of our highest priorities--a
committment that is shared throughout the Inspector General community. And our efforts to help prevent
and detect waste, fraud, and abuse of these funds are under way. On the investigative side, the U.S.
Attorney General has mandated zero tolerance for fraud related to hurricane funds. The President’s
Council on Integrity and Efficiency, of which OIG is an active member, supports the zero tolerance
initiative; therefore we expect to increase in our resources in this area. In addition, we will continue to
collaborate with our colleagues throughout the Inspector General community to ensure that the Federal
government's efforts truly benefit those citizens who have suffered greatly during the hurricane disasters.

In order to conduct our hurricane-related activities, a good portion of the work we intended to coordinate,
as detailed in our Fiscal Year 2006 Work Plan (Work Plan), has been postponed. However, we remain
dedicated to accountability in all Federal education programs and operations, and will address the
remaining concerns in our Work Plan as resources become available.

Thank you for your continued support of our efforts. I look forward to working with the Members of the
109th Congress and the Department in furthering our goals and achieving our mission.




                                                         John P. Higgins, Jr.
OVERVIEW
           The Office of Inspector General (OIG), for the period October 1, 2005, through March 31,
           2006, continued its work to promote efficiency, effectiveness, and integrity in the
           programs and operations of the U.S. Department of Education (Department). During this
           reporting period, we identified and summarized the top management and performance
           challenges facing the Department, as well as provided an update on the Department's
           progress in addressing the challenges. Presented in a report to the Department entitled,
           Management Challenges for Fiscal Year 2006 (Management Challenges), our report
           focused on two key areas: program accountability and operations accountability. (Click
           here for a copy of the report.) It discussed the need for the Department to continue to make
           the goal of effective stewardship a top priority by establishing effective accountability of
           its grantees, of its program participants, of its contractors, and of its employees. Work OIG
           concluded over the last six months shows continued weaknesses by the Department in
           these areas, which leave programs and operations vulnerable to waste, fraud, and abuse.
           Only by emphasizing oversight and enforcement can the Department provide effective
           stewardship over the hundreds of billions of dollars supporting its programs and
           operations.

           In the first section of our report, we provide information on our hurricane-recovery efforts.
           On December 30, 2005, President Bush signed the Department of Defense, Emergency
           Supplemental Appropriations to Address Hurricanes in the Gulf of Mexico, and Pandemic
           Influenza Act, 2006, (Public Law 109-148), that included the Hurricane Education
           Recovery Act (HERA). HERA provides $1.6 billion for education-related relief and
           recovery efforts in the wakes of Hurricanes Katrina and Rita. We consider stewardship of
           hurricane-related funds to be one of our highest priorities--a commitment that is shared
           throughout the Inspector General community. The President's Council on Integrity and
           Efficiency (PCIE), of which OIG is an active member, supports the zero tolerance
           initiative, therefore we expect to increase our resources in this area. Again, you will find
           more information on our hurricane-related work to date in this section of our report.

           In the second section of this report, we provide a summary of the work concluded in the
           area of elementary and secondary education, special education, and post-secondary
           education programs over the last six months. As reported in our last Semiannual Report to
           Congress (SAR), No. 51, we have increased our resources in reviewing allegations of
           waste, fraud, and abuse in these areas in recent years, and continued to do so this reporting
           period. Our recent findings show that promoting accountability, managing risks, and
           identifying and taking corrective action to address and prevent fraudulent activities in state
           and local programs still pose a significant challenge for the Department. This is
           particularly true in the areas of migrant education and the monitoring of its programs and
           grantees, all of which are discussed in more detail in this section of the report.

           For 26 years, helping the Department identify and reduce waste, fraud, and abuse in the
           student financial assistance programs has been a top OIG priority. As detailed in the third
           section of our report, these programs continue to demand our attention. The work we
           completed during this reporting period showed some cases in which the Office of Federal
           Student Aid's (FSA) monitoring and controls may have been inadequate.




                                              1
                                                      Semiannual Report To Congress: #52

The fourth section of our report highlights the audits, inspections, and reviews we
completed of the Department's internal operations and financial management. While the
Department's improved financial management systems are helping it to identify a number
of problem areas and possible misappropriations of Federal funds, work concluded during
this reporting period shows that there are still inadequacies in the Department's oversight
of and accountability for its internal operations, as well as its enforcement of policies and
procedures. Examples include weaknesses in the Department's information technology
(IT) security and contingency planning, its process for validating telecommunications
billings and inventories, and its lack of an effective internal audit followup process, which
are discussed in more detail in this section of the report.

OIG constantly strives to improve its operations and is considered a leader throughout the
IG community both in audit work and the emerging field of computer crime investigations.
In the fifth section of this report, we highlight a number of our accomplishments in this
area, including the first-ever Federal Cyber Summit and a Data-Mining Symposium. In
the sixth and final section of this report, you will find a compilation of tables of the audits,
inspections and investigations we concluded during this reporting period, as required by
the Inspector General Act of 1978, as amended (IG Act).

In closing, we will continue to work with the Department to promote accountability and
prevent fraud, waste, and abuse. And we will continue to work tirelessly to help ensure
that Federal education dollars reach their intended recipients. America's taxpayers and
students deserve nothing less.

For more information on the work or activities discussed in this report, please contact the
OIG Congressional Liaison at (202) 245-7023, e-mail us directly at
oigpublicaffairs@ed.gov, or visit our website at www.ed.gov/offices/oig.

And remember, anyone knowing of fraud, waste, or abuse involving Department funds or
programs should call or e-mail the Inspector General's Hotline. The toll-free number is 1-
800-MIS-USED (1-800-647-8733). The e-mail address is oig.hotline@ed.gov. Your
report can be made anonymously or in confidence.




                                     2
                                                            Semiannual Report To Congress: #52


HURRICANE RECOVERY EFFORTS
         The HERA provisions of Public Law 109-148 authorized three new grant programs to
         assist school districts and schools in meeting the educational needs of students displaced
         by Hurricanes Katrina and Rita, and to help schools closed as a result of the hurricanes to
         reopen as quickly and effectively as possible. These programs are: (1) the Immediate Aid
         to Restart School Operations program, funded at $750 million; (2) the Assistance for
         Homeless Youth program, funded at $5 million; and (3) the Temporary Emergency Impact
         Aid for Displaced Students program, funded at $645 million. In addition, Public Law 109-
         148 included $200 million for students and institutions of postsecondary education
         affected by the hurricanes.

         In the weeks immediately following enactment of Public Law 109-148, OIG worked
         closely with the Department, providing assistance and advice in matters relating to internal
         controls over HERA-related funding. This allowed OIG an opportunity to alert the
         Department to potential areas of risk or concern before the first HERA dollars were
         released, and provided the Department an opportunity to implement safeguards to help
         prevent waste, fraud, and abuse of these funds. Our emphasis was on appropriate
         monitoring, as well as accurate and reliable recordkeeping and reporting by grant
         recipients. We also advised the Department on issue areas identified by our regional audit
         teams, all in an effort to help ensure these vital dollars reach the intended recipients.

         As the Department only recently began disbursing hurricane-related funds, OIG did not
         issue any final audits of these funds during this reporting period. We have, however,
         initiated audits to evaluate the controls and criteria used for allocating these hurricane-
         related funds. As it is our long-standing policy to keep confidential the details of our on-
         going work, we will mention only the public aspects of our hurricane-related audits. When
         our work is finalized, we will report our findings to the U.S. Congress, the Department,
         and the general public.

         HERA PORTION         OF   SINGLE AUDIT COMPLIANCE SUPPLEMENT
         To ensure consistent audit coverage of the HERA programs by Nonfederal auditors
         conducting audits required by the Single Audit Act Amendments of 1996, and in accordance
         with Office of Management and Budget (OMB) Circular A-133, OIG staff worked with
         Department officials and OMB to produce a section for the HERA programs. It will be
         included in the Single Audit Compliance Supplement, to be published by OMB in the
         Spring of 2006. The Compliance Supplement identifies compliance requirements that
         must be covered in the single audits of state educational agencies (SEAs) and local
         educational agencies (LEAs), and includes guidance for auditing Federal programs.


ACCOUNTABILITY IN STATE AND LOCAL PROGRAMS
         As reported in our last SAR, No. 51, we continue to increase our resources for reviewing
         alleged waste, fraud, and abuse in the Department's elementary and secondary education,
         special education, vocational education, and adult education programs. Identifying and
         taking corrective action to detect and prevent fraudulent activities by SEA and LEA


                                            3
                                                              Semiannual Report To Congress: #52

           employees, as well as addressing accountability and compliance issues by program
           participants, remains a challenge for the Department. We cited several examples in our
           Management Challenges report, and based on the audit work concluded during this
           reporting period, found additional cases of concern, that are discussed below.

           MIGRANT EDUCATION

Georgia    We conducted an audit to determine the adequacy of the Georgia Department of
           Education's (GADOE) re-investigation of the eligibility of migrant students served by the
           Two Rivers Migrant Education Agency (MEA). We also examined whether Migrant
           Education Program (MEP) funds allocated to the Marion County Board of Education for
           Two Rivers MEA were expended appropriately, and the extent of GADOE's monitoring of
           its MEP sub-grantees. Our audit revealed that the policies, procedures and internal
           controls over the Two Rivers MEA MEP expenditure process were adequate and it
           expended its MEP funds appropriately. However, we also found that GADOE's re-
           investigation of the MEA was inadequate, its report to the Department was inaccurate, and
           the administration and oversight of GADOE's MEP needs improvement. We made a
           number of recommendations, including that the Department require GADOE to identify all
           MEP students served by the MEA whose eligibility was not determined in the
           investigation and determine their eligibility status, and determine if GADOE needs to
           refund any MEP funds as a result of the ineligible students identified. We also
           recommended that the Department require GADOE to design and implement a formal
           monitoring process to ensure compliance with program requirements. In addition, we
           recommended that the Department determine whether any sanctions should be brought
           against GADOE for inaccurate and unsupported statements made in its required report.
           GADOE concurred with our findings and recommendations, and stated that it has already
           taken steps to implement our recommendations. Click here to review our report.

Oklahoma   Our audit of the Oklahoma State Department of Education's (OSDE) MEP to determine
           whether it implemented systems that accurately count the students eligible to participate in
           the program found that 121 of the 124 (98 percent) migrant children from the three audited
           school districts in our sample were ineligible. Based on the sample results, we projected
           that OSDE included over 1,200 ineligible migrant children from the three audited school
           districts in its statewide migrant child count, resulting in OSDE inappropriately expending
           over $500,000 in MEP grant funds. Further, our interviews with OSDE MEP recruiters
           revealed that they did not understand the Federal requirements when enrolling students in
           the program. We made several recommendations, including that the Department require
           OSDE to conduct a statewide migrant child count for over $2 million in MEP funds
           allocated in Fiscal Year (FY) 2003/2004, as well as for subsequent years, and return to the
           Department any funds expended for ineligible children. We also recommended that OSDE
           establish adequate controls to ensure recruiters understand and follow Federal
           requirements when identifying and recruiting children into the program, and implement
           internal controls to ensure that future migrant child counts are accurate. OSDE neither
           agreed nor disagreed with our findings; however, it stated that it will investigate the
           findings, gather additional information regarding MEP eligibility, and will work closely
           with the Department to prepare a corrective action plan to improve current procedures to
           ensure compliance with Federal requirements. Click here to review our report.


                                              4
                                                                  Semiannual Report To Congress: #52

               NO CHILD LEFT BEHIND

Compliance     During this reporting period, we concluded a review of the compliance requirements
Requirements   within the Title I, Part A of the Elementary and Secondary Education Act (ESEA) as
               amended by the No Child Left Behind Act (NCLB) to provide information to assist the
               Department and the U.S. Congress in determining whether all compliance requirements
               are necessary in a reauthorized ESEA. Because the Department, SEAs, and LEAs conduct
               annual monitoring to ensure compliance with the requirements of ESEA, Title I, Part A, we
               reviewed the Department's monitoring guides, and those of randomly-selected SEAs to
               determine how many of the compliance requirements were included in the guides. Of the
               588 SEA and LEA compliance requirements within Title I, Part A of ESEA, 89 (15
               percent) were not specifically identified in any of the guides. We suggested that the Office
               of Elementary and Secondary Education (OESE), which administers Title I, review the
               compliance requirements to assess whether each is necessary, or can be eliminated. OESE
               disagreed with our finding. Click here to review our report.

Supplemental   Supplemental Educational Services (SES) Monitoring
Educational
               We concluded an audit to determine if the Delaware Department of Education (DDE) had
Services       an adequate process in place to review LEA and school compliance with adequate yearly
               progress (AYP), public school choice, and SES provisions of the ESEA. We also reviewed
               whether LEA's provided to students attending schools identified for improvement the
               option of attending another public school and whether LEAs provided SES to students
               attending schools that failed to make AYP while identified for improvement, corrective
               action, or restructuring. Our audit revealed that while DDE adequately reviewed LEA and
               school compliance with AYP, DDE did not have a process in place to adequately monitor
               LEA and school compliance with the school choice provisions, including the Unsafe
               School Choice Option (USCO) and SES provisions. Our audit also disclosed that none of
               the LEAs reviewed fully complied with the provisions on public school choice, including
               the USCO and SES provisions of the ESEA and implementing regulations. Based on our
               findings, we recommended that DDE document and implement internal controls pertaining
               to the process for reviewing LEA and school compliance with school choice, including
               USCO and SES provisions. DDE concurred with all but one of our findings. Click here to
               review our report.

               LEA Contracts with SES Providers

               We recently concluded audits in four California school districts to determine whether SES
               contracts contained the elements specified in the ESEA, if the SES providers performed the
               services for which they received payment, and if the SES providers collected and
               maintained data to help the California Department of Education (CDE) evaluate the
               quality and effectiveness of the services offered by the provider. We looked at the
               Stockton Unified School District's contract with Learning Excitement Incorporated, the
               Los Angeles Unified School District's contract with Professional Tutors of America, the
               Oakland Unified School District's contract with Art, Research and Curriculum Associates,
               and the Salinas Union High School District's contract with Progressive Learning. Overall,
               we found that the districts' contracts, with the exception of those in Oakland, included
               elements required by applicable ESEA provisions and Federal regulations; however, we


                                                  5
                                                                    Semiannual Report To Congress: #52

              found that the school districts did not develop individual student learning plans (in the case
              of Stockton and Salinas), and providers did not provide student progress reports within a
              specified timeframe (in the case of Professional Tutors of America), as required. We made
              a number of recommendations, and in each case, CDE did not explicitly express
              concurrence; however, it did describe the corrective actions taken or planned to address
              each of our recommendations. Click on the links below to review our reports: Learning
              Excitement Incorporated; Professional Tutors of America; Art, Research and Curriculum
              Associates; Progressive Learning

              LEA Compliance with SES

              We conducted an audit to determine whether San Diego City Schools' (SDCS) individual
              student agreements for district-provided SES contained the elements specified in the
              ESEA, if it performed the services for which it received Federal funding, if the services
              were provided in a manner consistent with the agreement terms and Federal requirements,
              and if it collected and maintained the data for students receiving district-provided SES that
              will be used by the CDE to evaluate the quality and effectiveness of the services provided
              by the SDCS SES program. Our audit found that SDCS' individual student agreements did
              not include elements required by the applicable ESEA provisions and Federal regulations
              and SDCS did not have agreements for all students who received SES. We were unable to
              determine if SDCS provided the services in a manner consistent with student agreements
              and Federal requirements because it did not develop student agreements for all students
              and those that were developed did not contain the information needed to evaluate
              compliance with the requirements. We recommended that the Department require CDE to
              take steps to obtain confirmation from SDCS that individual achievement plans were
              developed for all students receiving SES in the timeframe examined, and that the
              agreements contain the elements required by ESEA. CDE did not explicitly express
              concurrence with our finding, but it did describe the corrective actions it has taken or that it
              planned to address our recommendation. Click here to review our report.

Performance   California
Data
              During this reporting period, we completed an audit of CDE's inclusion of migrant and
              students with limited English proficiency (LEP) in the statewide assessment and
              accountability systems. We found that LEAs did not monitor test administrators to ensure
              appropriate use of LEP accommodations, and that its test administration documents lacked
              clarity. In addition, CDE did not report data on LEP accommodations, did not provide
              assessment and accountability data to the LEAs in a timely manner, and the LEAs did not
              provide all the required information when informing parents about public school choice.
              We made several recommendations, including that the Department instruct CDE to take
              additional steps to ensure students are provided with LEP are provided reasonable
              accommodations on assessments, and that CDE take additional steps to ensure eligible
              students have access to public school choice in accordance with applicable laws and
              regulations. CDE did not explicitly express concurrence with our findings, but it did
              describe the corrective actions taken or that it planned to address. The corrective actions
              did not fully address two of our recommendations. Click here to review our report.




                                                   6
                                                                     Semiannual Report To Congress: #52

                Texas

                We conducted an audit to determine whether TEA's required reporting of dropout and
                graduation rates in the 2003-2004 Consolidated State Performance Report (CSRP) were
                supported by reliable data and met the requirements of ESEA. We found that TEA met the
                requirements of ESEA by reporting dropout and graduation rates, and for the nine schools
                reviewed, collected generally reliable data to support the dropout rates reported in the
                CSPR. However, data used to compute graduation rates were not as reliable. We
                recommended that the Department require TEA to maintain continual data process
                improvements by increasing oversight of reporting and reliability, and developing and
                implementing improved procedures and monitoring. TEA concurred with our
                recommendations. Click here to review our report.

                INDIVIDUALS WITH DISABILITIES EDUCATION ACT
                The Individuals with Disabilities Education Act, as amended, (IDEA), requires states to
                expend local and state funds for special education in a year at the same or higher level as in
                the previous year. This provision ensures that the funds are used to supplement not
                supplant local, state and other Federal funds. This is commonly referred to as
                "maintenance of effort." We conducted an audit at the Kansas State Department of
                Education (KSDE) to determine if it maintains a state-level maintenance of effort, and if it
                monitors LEA local-level maintenance of effort, as required by IDEA. KSDE could not
                demonstrate that it adequately monitored local-level maintenance of effort or maintained a
                total state-level maintenance of effort because its calculations were inaccurate and
                unsupported. KSDE did not monitor the LEAs to ensure that all required edits made by
                LEAs to the local-level maintenance of effort calculations were correct and complete.
                KSDE also could not demonstrate it maintained total state-level maintenance of effort
                requirements because it did not use accurate data to compute its calculation. KSDE
                concurred with our findings and corresponding recommendations. Click here to review
                our report.

                GRANTEE ACCOUNTABILITY

William Floyd   During this reporting period, we concluded two audits of the William Floyd Union Free
Union Free      School District (William Floyd) located in New York. We found that William Floyd could
School          not support over $4.6 million of ESEA Title I salary and salary-related expenditures.
                Included in this amount was over $2.5 million charged for the salaries of 22 full-time
District        targeted assistance employees for whom William Floyd could not provide periodic
                employee certifications. Based on these findings, we determined that William Floyd had a
                significant internal control weakness that adversely affected its ability to properly
                administer Title I funds. In addition, we concluded that New York State Education
                Department (NYSED) failed to properly monitor grants distributed to William Floyd. To
                correct these deficiencies, we made a number of recommendations, including that the
                Department instruct NYSED to require William Floyd to provide support for the $4.6
                million in unsupported Title I expenditures, and return any unsupported amounts, plus
                applicable interest to the Department. We also recommended that the Department require
                NYSED to monitor grants to William Floyd to determine compliance with applicable
                statutes and regulations, and enforce procedures for reviewing and approving budget


                                                    7
                                                                     Semiannual Report To Congress: #52

                 amendments to grant applications. After the final report was issued, NYSED sent a
                 response to the Department stating it generally concurred with portions of the findings.
                 Click here to review our report.

                 Our second audit at William Floyd found that William Floyd could not provide adequate
                 support for over $79,000 of non-salary related expenses charged to Title I. In particular,
                 William Floyd disbursed $50,000 of purchased services without a signed contract,
                 overcharged purchased services and travel expenses by more than $25,000, and made
                 journal entries valued at over $4,000 without any supporting documentation. We also
                 found that William Floyd used Title I funds to supplant over $67,000 of textbook expenses.
                 To correct these deficiencies, we recommended that the Department instruct NYSED to
                 require William Floyd to provide proper support for over $79,000 of expenses charged to
                 Title I and return any unsupported amounts with applicable interest, as well as maintain
                 records that adequately identify the source and application of Title I funds. In addition, we
                 recommended that William Floyd return over $67,000 of unallowable interest to the
                 Department. NYSED and William Floyd generally concurred with two of our three
                 findings and recommendations. Click here to review our report.

Education        During this reporting period, we concluded an audit to determine if the Federal funds
Leaders          drawn down by Education Leaders Council (ELC) for the Following the Leaders (FTL)
Council          program were used for ELC's operations, and if expenditures allocated to the FTL program
                 were reasonable and allowable. ELC is a non-profit organization, founded in 1995 as a
                 school-reform group committed to leading educational change and improved academic
                 achievement for all students. (In December 2005, ELC changed its name to Following the
                 Leaders. For clarity, our report refers to it by its former name, ELC.) Our audit disclosed
                 that for the timeframe reviewed, ELC drew down funds that could have been used to cover
                 operating deficits in its non-FTL activities, charged indirect costs to the Federal grants
                 even though it did not have an approved indirect cost plan (over $90,000), and charged
                 questioned and unsupported costs to the Federal grants (over $230,000). We also found
                 that ELC overdrew the grant by over $495,000. We made a number of recommendations,
                 including that the Department require ELC to return over $495,000, and any other grant
                 funds drawn down and not actually disbursed for grant costs, and provide adequate
                 documentation for the unsupported expenditures of over $138,000 that remain charged to
                 the grants. ELC did not disagree with our findings and recommendations as a whole;
                 however, it did take issue with certain aspects of the findings. Click here to review our
                 report.

Pittsburg Pre-   Pittsburg Pre-School and Community Council (PPCC) is a non-profit organization that
School and       provides programs and services to low-income and no-income families in Contra Costa
Community        County, California. These services include pre-school programs, youth services, senior
                 services, job training, and health education. During this reporting period, we concluded an
Council          audit to determine whether PPCC properly accounted for and used grant funds provided
                 under the Early Reading First grant, and two Migrant Education Even Start (MEES)
                 grants, in accordance with the grant terms and applicable Federal laws and regulations.
                 We found that PPCC improperly charged the grants for over $98,000 of costs that were not
                 necessary, approved, or related to grant activities. It did not have required documentation
                 for personnel costs charged to the grants; thus, we were unable to determine whether over
                 $671,000 charged to the grant accounts for personnel costs was reasonable and allocable.


                                                    8
                                                                    Semiannual Report To Congress: #52

                Similarly, PPCC did not provide adequate documentation for non-personnel costs charged
                to the grant accounts, thus we were unable to determine whether some $118,000 of non-
                personnel costs were reasonable and allocable. In addition, PPCC drew down Federal
                funds for the 2004 MEES grant that were in excess of its immediate needs, and its
                procedures and practices did not meet Federal standards for financial management
                systems. Based on our findings, we recommended that the Department require PPCC to
                return or adjust its claims for reimbursement for improper charges and unsupported costs
                charged to the grants. We also recommended that PPCC take specific actions to improve
                the internal controls in its financial management systems. PPCC generally disagreed with
                our findings and recommendations. Click here to review our report.

New York City   In accordance with a Memorandum of Understanding between OIG, the Federal
Department      Communications Commission (FCC) and the Universal Service Administrative Company
of Education    (USAC), we conducted an audit of the E-Rate-funded telecommunications charges at the
                New York City Department of Education (NYCDOE). Our audit sought to determine if E-
                Rate funds disbursed for NYCDOE telecommunication services were excessive or
                erroneous. During this reporting period, the final report was issued to the FCC, the agency
                responsible for officially releasing the audit to the NYCDOE and the general public, as
                well as for resolving any related issues.

                MONITORING        AND   ADMINISTRATION

State           In our last SAR, No. 51, we discussed our audit of the Center for State Scholars (Center), in
Scholars        which we determined the Center did not properly account for and use over $1 million of
Initiative      State Scholar Initiative funds in accordance with applicable regulations and requirements
                in its cooperative agreement with the Department. During this reporting period, we
                concluded an audit of the cooperative agreement between the Center and the Department
                to determine if the Department awarded the State Scholars Initiative Grant in accordance
                with applicable regulations and Department policy, and if the Office of Vocational and
                Adult Education (OVAE) provided adequate program management of the Center's grant.
                We found the Department did not award the grant in accordance with Department policy,
                and OVAE did not provide adequate program management of the grant. Specifically, we
                found that the Department did not follow its policy when it encouraged the Texas Business
                and Education Coalition to submit an unsolicited proposal, and the panel review process
                was not in accordance with established policy. In addition, OVAE did not provide
                consistent program management, and did not address financial problems expeditiously.
                Our recommendations included that the Department develop internal controls to ensure
                staff follows official guidelines and policies when processing grant applications. The
                Department did not agree with the findings; however, it did concur with our
                recommendations. Click here to review our report.

Consolidating   ESEA, as amended by NCLB, requires SEAs to encourage schools to consolidate Federal,
Funds in        State, and local funding for schoolwide programs. This allows the schools more flexibility
Schoolwide      in how they use those funds. In addition, SEAs must modify or eliminate state and fiscal
                barriers so these funds can be easily consolidated. We recently concluded an audit to
Programs        determine what the Department has done to assist SEAs in this effort. We found that while
                the Department has provided some assistance to SEAs in modifying or eliminating state


                                                   9
                                                                    Semiannual Report To Congress: #52

               fiscal and accounting barriers to consolidating funds and encouraging schools to do so in
               their schoolwide programs, it has not yet followed through on publishing official guidance
               on consolidating funds and has not reported findings it discovered during site visits at
               SEAs that were not encouraging consolidation. The Department stated that the delay in
               publishing the guidance was due to conflicting priorities. The delay however, may have
               contributed to SEAs' failure to encourage consolidation, and the lack of utilization of this
               option by LEAs. We recommended that the Department develop and issue its guidance in
               consultation with specific SEAs that have already developed extensive guidance on the
               subject. The Department indicated a qualified concurrence with this recommendation. We
               also recommended that the Department follow its current SEA monitoring procedures with
               respect to the consolidating funds responsibilities of SEAs, and include recommendations
               for corrective action regarding any failure on the part of SEAs to fulfill their
               responsibilities to encourage consolidation. The Department did not concur with the latter
               part of this recommendation, citing an apparent contradiction between the NCLB and an
               OMB Compliance Supplement requirement for semiannual certifications for employees
               who work on activities supported with consolidated Federal, State, and local funds. The
               Department subsequently worked to resolve the contradiction with OMB and expects to
               issue guidance shortly regarding options for addressing semi-annual certification in
               schools operating schoolwide programs. Click here to review our report.

Adherence to   During this reporting period, we concluded an audit to determine if the Department had
Matching       adequate procedures to monitor grantees' adherence to matching fund requirements of
Requirements   applicable Department programs. A match, also referred to as cost-share, is defined as the
               portion of program costs contributed by a grant applicant. It is either a statutorily specified
               percentage of program costs that must be contributed by a grant applicant in order to be
               eligible, or where the applicant voluntarily shares in the cost of the program. Matching
               contributions must be comprised of cash or in-kind contributions, must be fully
               documented and accounted for in the grantee's expenditure records and report, and meet
               the same standards for allowable costs as the Federal share. The Department administers
               at least 41 discretionary and formula grants with specific requirements for matching
               contributions. Based on a survey of monitoring plans and further review at a number of
               program offices, we found that the Department did not have adequate procedures for
               monitoring grantees' adherence to matching requirements for the majority of these
               programs. The program offices did not consistently monitor the match, in part because the
               Department did not provide adequate guidance, training, and oversight of procedures and
               practices to monitor the match. The inadequate coverage of matching funds represents a
               significant weakness in the Department's internal controls over the grant monitoring
               process. We made a number of recommendations, including that the Department require
               staff to revise its Handbook to include specifics on monitoring matching funds
               requirements and ensure that staff with oversight responsibilities for grant programs with a
               matching component receive training on these requirements. We also recommended that
               principal offices update their monitoring plans to include specific measures for monitoring
               grantees' adherence to program matching requirements, and review all monitoring plans to
               ensure that specific measures for monitoring matching funds are included. The
               Department stated that it recognized that its policy and training related to monitoring
               grantees' matching requirements could be strengthened and improved. Click here to
               review our report.



                                                   10
                                                                   Semiannual Report To Congress: #52

                POSTSECONDARY PROGRAMS

Overlapping     We concluded a review to determine if the Office of Postsecondary Education's (OPE)
Grant           grant programs have duplicative program objectives aimed at serving like-target
Programs        populations and areas, and if grant programs administered by other Department offices
                contain program objectives that overlap with OPE grant programs. Our review disclosed
                that OPE administers at least 41 discretionary and formula grants with duplicative program
                objectives serving like areas and populations. There also are 14 OVAE and 13 OESE grant
                programs that overlap, completely or in part, with OPE grant programs. All programs
                contained some unique characteristics; however, there were a large number with
                overlapping objectives that offered similar services to the same or overlapping
                populations. Some programs may not have overlapping primary objectives, but a
                secondary objective overlaps an OPE program. We believe that this overlap is counter to
                the Department's mission to improve coordination and management of Federal education
                programs. Based on our findings, we suggested that the Department continue to work with
                the U.S. Congress to consolidate or eliminate programs that have the same or similar
                program objectives, realign similar grant programs so they are administered by the same
                office within the Department, and that it improve coordination between OPE and other
                Department programs with the same or similar program objectives. The Department
                concurred with two of our suggestions, and recognized the benefit of the third. Click here
                to review our report.

Sheldon         Our audit at Sheldon Jackson College (SJC) sought to determine whether SJC properly
Jackson         accounted for and used funds provided under the Fund for the Improvement of
College         Postsecondary Education (FIPSE). SJC was awarded two Congressionally-directed
                grants, totaling more than $2.4 million. Our audit found that SJC improperly drew down
                FIPSE funds in excess of the immediate needs of the grant programs to provide cash for its
                entire payroll and other non-grant related expenses. In addition, it used a financial
                management system that did not properly account for the receipt and use of the FIPSE
                funds or meet other standards for such a system. Due to the deficiencies in SJC's financial
                management system, we were unable to determine whether SJC used FIPSE funds for
                reasonable, allocable and allowable costs of the grants. We recommended that the
                Department require SJC to determine the average daily balance of "borrowed" funds for
                the grants and reimburse the Federal government for the interest cost incurred, as well as
                return to the Department the FIPSE funds for which it is unable to identify expenditures
                and provide documentation showing that the uses of the funds were reasonable, allocable
                and allowable costs of the grants. SJC did not dispute our findings, and concurred with our
                recommendations. Click here to review our report.

Indiana State   We conducted an audit to determine whether Indiana State University (ISU) administered
University      its Ronald E. McNair Postbaccalaureate Achievement Project (McNair project) in
                accordance with applicable law and regulations. Funded by the Department, the McNair
                project is one of the Federal TRIO programs that provide education support and
                opportunities to students from economically disadvantaged backgrounds. The McNair
                project's goal is to increase the number of doctoral degrees earned by students from
                underrepresented populations. Our audit revealed that generally, ISU's McNair project
                properly accounted for McNair project grant funds; however, it provided services and


                                                  11
                                                                  Semiannual Report To Congress: #52

               equipment to ineligible students, and provided a project official a double reimbursement.
               We recommended that the Department require ISU to return over $38,000, as well as
               develop and implement procedures to ensure that only eligible students who meet specific
               criteria participate in the program. ISU concurred with our findings and
               recommendations. Click here to review our report.

               IDENTIFYING      AND INVESTIGATING           CORRUPT OFFICIALS
               Our investigations into suspected fraudulent activity by education grantees have led to the
               arrest and conviction of a number of high-ranking state and local education employees
               who have misused Federal education funds. Here are a few examples of our work over the
               last six months:

American       Three former American Samoa government officials were sentenced for their roles in a
Samoa          bribery, conspiracy, and fraud scheme. The former officials-the Director of the American
               Samoa Department of Education, the Chief Procurement Officer, and the Program Director
               of the American Samoa School Lunch Program-defrauded the Department, the U.S.
               Territory of American Samoa, and other Federal agencies by subverting procurement
               processes and illegally awarding and distributing goods and services intended for the
               American Samoa School District. The sentences ranged from 30 months in federal prison
               to five years probation and 1,000 hours of community services, and combined, the
               individuals were ordered to pay approximately $214,000.

Mississippi    A joint investigation conducted by OIG and the Mississippi State Auditor's Office led to
               the arrest and conviction of four individuals involved in an embezzlement scheme
               designed to steal ESEA Title I and Reading Excellence Grant funds designated to be used
               to improve student reading in Mississippi's Meridian Public School District. The
               individuals-one former elementary school principal and three other women-embezzled
               funds in excess of $170,000 for personal benefit. The former principal used her authority
               to submit false claims and caused others to be paid for goods and services that were never
               provided to the school. Their sentences ranged from 30 months imprisonment to three
               years probation, and combined, the individuals were ordered to pay over $400,000 in
               restitution.

Pennsylvania   The former Assistant Director of Education of the Sister Clara Muhammad School in
               Philadelphia was sentenced to 24 months incarceration, three years probation and ordered
               to pay $21,600 in restitution to the Community College of Philadelphia (CCP) for
               defrauding the Adult Basic Education Program of the CCP. She was also ordered to forfeit
               her position of authority with the school. The former Assistant Director was the last of six
               defendants to be sentenced in this case. Our investigation with the Federal Bureau of
               Investigation and Internal Revenue Service revealed that the former Assistant Director and
               others organized a scheme to receive public funds for adult basic education courses that
               were not held, and that teachers were paid without teaching courses. This scheme was
               used as one of the predicate offenses in a Racketeering Influenced Criminal Organization
               that sought to obtain money and property by defrauding government entities, financial
               institutions, businesses, and individuals through extortion and bribery.



                                                 12
                                                                    Semiannual Report To Congress: #52


ACCOUNTABILITY IN STUDENT FINANCIAL ASSISTANCE
PROGRAMS
                The Department's student financial assistance programs are large and complex. The loan
                and grant programs rely on over 6,000 postsecondary institutions, more than 3,000 lenders,
                35 guaranty agencies and many contractors. With approximately $70 billion awarded
                annually through the student financial assistance programs and an outstanding loan
                portfolio approaching $400 billion, the Department must ensure that all entities involved in
                the programs are adhering to statutory and regulatory requirements. FSA must provide
                adequate program monitoring to reduce waste, fraud, and abuse in these programs.
                Highlighted below are examples of our work in this area over six months.

                RETURN     OF   FUNDS    FOR   WITHDRAWN STUDENTS

University of   We conducted an audit to determine whether the University of Phoenix (UOP) has policies
Phoenix         and procedures that provide reasonable assurance that it properly processes the return of
                HEA Title IV (Title IV) funds for withdrawn students. When a student withdraws before
                the end of a period for which he or she has received student financial aid, the school must
                determine the amount of aid the student earned as of the withdrawal date and, if the
                amount is less than the amount of aid received, return all or a portion of the student's aid.
                The school identifies the amount of aid that the student earned by using regulatory and
                Departmental guidance to identify the percentage of aid earned, as appropriate for the
                program, and then applies that percentage to the amount of aid the student received or
                should have received. Our review covered Return of Title IV calculations performed
                during the period September 1, 2002, through March 31, 2004. We expanded our review
                through March 31, 2005, to evaluate UOP's methodology for determining the "percentage
                of Title IV aid earned." We found that UOP had policies and procedures in place that
                provided reasonable assurance that the institution properly identified withdrawn students,
                appropriately determined whether a Return of Title IV calculation was required, returned
                Title IV funds for withdrawn students in a timely manner, and used appropriate
                methodologies for most aspects of calculating the return of the aid. However, we also
                found that UOP applied inappropriate methodologies to determine the "percentage of Title
                IV aid earned" for calculations performed in the timeframe we examined. As a result,
                UOP may have underestimated the amount of Title IV funds to be returned by over $10
                million.

                We made several recommendations, one of which was to require UOP to use the
                appropriate requirements for determining "percentage of aid returned" to recalculate all of
                the returns of funds during the period we examined and to return the Title IV funds to the
                applicable programs or lenders. We also recommended that UOP engage an independent
                public accountant to attest to the accuracy of the Return of Title IV recalculations. UOP
                did not concur with our finding and recommendations. Click here to review our report.




                                                   13
                                                                 Semiannual Report To Congress: #52

Florida       The objectives of our audit were to determine whether the Florida Agriculture and
Agriculture   Mechanical University (FAMU) was in compliance with requirements for the return of
and           Title IV funds, basic student eligibility, and cash management. Our review of cash
              management was limited to the Federal Pell Grant (Pell Grant) and William D. Ford
Mechanical    Federal Direct Loan (Direct Loan) programs. We found that FAMU generally complied
University    with the cash management requirements. It did not comply with the requirements for the
              return of Title IV funds. We identified 40 students from a total of 355 that withdrew, for
              whom FAMU failed to calculate a return of Title IV funds. This resulted in $81,110 of
              unearned Title IV funds. Our review of basic student eligibility revealed that FAMU
              improperly disbursed Title IV funds in excess of amounts students were eligible to receive.
              FAMU also did not properly identify bank accounts that included Federal funds. We made
              a number of recommendations, including that FSA take action to fine FAMU for the 40
              instances of failing to make a return of Title IV, and require the school to strengthen its
              policies and procedures to ensure that required Return of Title IV calculations are not
              overlooked. We also recommended that FSA require FAMU to remit the portion of the
              more than $81,000 due from the University. FAMU concurred with our findings and
              recommendations, and stated it has taken corrective actions. Click here to review our
              report.

              90-10 RULE

Career        During this reporting period, we concluded audits at two Career Education Corporation
Education     (CEC) schools to ensure compliance with the 90-10 Rule, Section 102(b)(1)(F) of the
              HEA, and that the schools had sufficient, reliable accounting records to support the
Corporation
              calculation for January 1 through December 31, 2003. Under the 90-10 Rule, at least 10
              percent of the revenues of a proprietary institution of higher education must be from
              sources that are not derived from funds provided under Title IV of the HEA. Audit
              findings at the two CEC schools-Sanford-Brown College (SBC) and Sanford-Brown
              Institute-Atlanta (SBI)-were similar. Though our audits found that SBC and SBI did not
              derive more than 90 percent of their revenue for the FY 2003 from Title IV programs, we
              also found that CEC's calculations of those percentages for SBC and SBI were not in
              accordance with regulations. While CEC reported that SBC derived 80 percent and SBI 88
              percent of its revenue from Title IV, we estimated that SBC derived 82 percent, and SBI
              86.6 percent of its revenue from Title IV program sources. We recommend that FSA
              require CEC to establish-or finalize and implement-policies and procedures that ensure it
              will calculate the percentage of revenue derived from the programs in compliance with
              applicable laws and regulations, and recalculate the 90-10 Rule percentage for SBC's and
              SBI's FY 2004, and report the percentage to FSA. CEC concurred with our finding and
              recommendations, with the exception of one item in our SBC audit, and one item in our
              SBI audit. Click on the links below to review our reports: SBC; SBI




                                                14
                                                                    Semiannual Report To Congress: #52

               FEDERAL STUDENT AID OPERATIONS

Death and      Based on the results of an audit we conducted in 1998 and 1999 (Improving the Process for
Total and      Forgiving Student Loans, ACN A0680001), the Department revised its regulations for
Permanent      determining the eligibility of Federal Family Education Loan (FFEL) and Direct Loan
               program borrowers for discharges for death and total and permanent disability. In 2005,
Disability     we concluded a follow-up audit, to evaluate the policies, procedures, and internal controls
Discharges     that were implemented under those regulations. Our audit did not identify any issues
               related to death discharges, but it did identify problems with disability discharges. Under
               the revised regulations, to determine a borrower's eligibility for a disability discharge, the
               loan is first conditionally discharged for three years, during which the borrower's earnings
               and loan status are monitored. This three-year period begins on the date the borrower
               became totally and permanently disabled as certified by a physician. We found that, in
               many cases (about 54 percent), borrowers' disability dates occurred more than three years
               before their applications for discharge were submitted. Since the Department only
               considers earnings and loan status during the conditional discharge period, and not after
               this period ends, many loans are discharged without a consideration of the borrower's
               current earnings and loan status.

               We recommended that the Department allow for such a consideration when determining
               eligibility for a discharge. The Department did not disagree with our finding, but
               disagreed with our recommendation. In addition, we found that FSA resumed collection
               on 16,457 loans, that were in a conditional discharge status before the borrowers were
               identified as ineligible for disability discharges. Under current regulations, these ineligible
               borrowers were not charged interest while their loans were in a conditional discharge
               status. We asked the Department to reconsider this benefit. We also found that the
               Department did not update the National Student Loan Data System (NSLDS), as required
               by its procedures. The Department agreed with our finding on NSLDS, but disagreed with
               our finding on interest benefits. Click here to review our report.

Initial        We conducted an audit to assess the adequacy of FSA's internal control over its initial
Exceptional    approval of lenders' or servicers' requests for Exceptional Performance (EP) designation.
Performance    A lender or servicer may be designated for EP if it has a due diligence compliance rating of
               97 percent or greater. Lenders and servicers designated for EP may receive 100 percent
Applications   reimbursement on claims submitted for insurance. In general, without the EP designation,
               only 98 percent of the unpaid principal balance of a loan would be guaranteed. The audit
               covered applicants' requests that became effective during the period January 1, 2003,
               through April 30, 2005. We found that FSA did not always ensure that the annual audits
               submitted by lenders or servicers, with their applications for EP designation, covered a
               period that ended no more than 90 days before the submittal date, as required under
               regulations. In addition, FSA did not always maintain records that were sufficient to
               adequately document the EP review and approval process. Except for these two findings,
               FSA's internal control over the initial approval of lenders' and servicers' requests for EP
               designation was generally adequate. FSA concurred with our findings and
               recommendations. Click here to review our report.




                                                   15
                                                                   Semiannual Report To Congress: #52

Pseudo Social   We conducted an inspection of the Department's use of Pseudo Social Security Numbers
Security        (PSSNs), as specified in Title IV of the HEA. A PSSN is used as a student identifier by
Numbers         FSA when there is a Social Security number (SSN) conflict between two borrowers. This
                occurs when an individual with a valid SSN is entered into the system and the SSN is in
                use by another individual. When this happens, a PSSN is created and the loans for the
                borrower who is already on the system are moved to a PSSN account.

                Our inspection sought to determine whether FSA has established adequate internal
                controls for PSSNs and whether those controls are being followed, and if there are data
                accuracy problems associated with the use of PSSNs in the NSLDS. Our inspection
                identified weaknesses in the internal controls for PSSNs and that the controls in place were
                not always followed. We also identified data accuracy problems with the use of PSSNs in
                the NSLDS. We found that the Common Origination and Disbursements System (COD)
                does not have adequate control activities to address PSSN issues for the Direct Loan
                program, and COD system edits do not identify or reject PSSNs for all Direct PLUS Loan
                transactions. This weakness is mitigated by control activities in Direct Loan Servicing.
                We also found that the NSLDS instructions to data providers on assigning PSSNs do not
                provide adequate guidance for the creation and use of PSSNs, and the number assignment
                format is not consistently followed.

                We made a number of recommendations, including that FSA ensure that data providers
                provide consistent and accurate data and that their policies include instructions for
                creating, using, and retiring PSSNs, that Parent SSNs on PLUS loans are validated, and
                that data providers follow the NSLDS instructions and other guidance to appropriately
                create, use, and retire PSSNs. The Department generally concurred with our inspection
                results and recommendations. Click here to review our report.

                INVESTIGATING FRAUD           AND   ABUSE
                OIG investigative work concluded over the last six months demonstrates the continued
                impact of our efforts to identify and investigate those who misuse student financial
                assistance funds. Here are several highlights of our recent efforts:

Fraud By        Hamilton Professional Schools
School
                The former owner and president of Hamilton Professional Schools in Puerto Rico-a
Officials       proprietary school offering training programs in practical nursing, welding, air conditioner
                repair, and cosmetology-was sentenced to 33 months incarceration, three years probation,
                and was ordered to pay restitution of $160,000 in connection with the administration of
                Pell Grant funds at the school. An OIG investigation revealed that the former owner
                illegally obtained Pell Grant funds by misrepresenting student hours of attendance, the
                number of clock hours of instruction offered, the eligibility of students, and the number of
                student withdrawals. He was also ordered by the court to forfeit over $118,000 in cash and
                real property in connection with over $452,000 in Pell Grant funds he embezzled and
                converted to his own use. His wife, the former registrar of the school, was sentenced in
                2005 for her role in the scheme.




                                                  16
                                                                    Semiannual Report To Congress: #52

Fraud by Staff   Valley Acceptance Corporation
of
                 A Federal judge found the former owner of the Valley Acceptance Corporation-a Phoenix-
Corporations     based agency that specializes in the collection of defaulted student loans-guilty of
Doing            conspiracy to commit bank fraud and student loan fraud. An OIG investigation revealed
Business with    that the former owner conspired with four of his employees, all of whom have been
FSA              sentenced, and submitted over 500 fraudulent applications for consolidated student loans
                 in order to generate more than $1 million in commissions for themselves. The scheme
                 misrepresented that the applicants were in repayment status on their prior loans so as to
                 qualify them for new bank loans backed by the Department. During this reporting period,
                 the last three cooperating defendants received their sentences for participating in the
                 scheme. The first received four months incarceration, five years probation, and was
                 ordered to pay over $185,000 in restitution. The second received five years probation, and
                 was ordered to pay restitution of $282,000, subject to modification. The third received a
                 sentence of five years probation, 200 hours of community service, and was ordered to pay
                 restitution of over $550,000 with the other co-defendants in the case.

Fraud by         A New York man was sentenced to five years probation and ordered to pay over $117,000
Students/        in criminal and civil restitution for defrauding the government. An investigation
Individuals      conducted by OIG, the New York City Housing Authority, the New York City Human
                 Resources Administration, and the U.S. Department of Veterans' Affairs OIG revealed that
                 the man misrepresented or failed to disclose income derived from his employment at a
                 Veterans Affairs Medical Center and in doing so, received over $117,000 in assistance to
                 which he was not entitled. Our investigation revealed that the man's failure to disclose his
                 true income on his Free Applications for Federal Student Aid (FAFSA) resulted in his
                 receipt of approximately $12,000 in Pell Grants, Supplemental Education Opportunity
                 Grants and FFEL program loans disbursed for his attendance at two campuses of the City
                 University of New York.

                 An illegal alien from Ghana was sentenced to five months incarceration, one year of
                 supervised release, and ordered to pay over $75,000 in restitution for mail fraud and
                 student financial aid fraud. He was previously indicted on 28 counts of mail fraud and
                 student aid fraud after falsifying his citizenship eligibility status on his FAFSAs.

Foreign          A man was sentenced to 12 months and one day incarceration and ordered to pay over
School Fraud     $36,000 in restitution for his role in a scheme to fraudulently obtain a number of Federal
                 student loans from two guaranty agencies and various banks throughout the country for the
                 same loan period. An OIG investigation disclosed that the individual submitted fraudulent
                 loan paperwork to the two guaranty agencies and various banks indicating that he was
                 enrolled in a foreign business school and a medical school both in Costa Rica; however, he
                 never attended the schools listed on his loan paperwork.




                                                   17
                                                                      Semiannual Report To Congress: #52

Identity Theft   During this reporting period, a ringleader and six family members involved in an
                 approximate $1 million identity theft and financial aid fraud scam received sentences
                 ranging from six to 57 months incarceration, and were ordered to pay between $8,000 and
                 over $662,000 in restitution for student aid fraud. A joint OIG and U.S. Postal Inspection
                 Service investigation revealed that the ringleader-a grandmother-along with seven
                 members of her family, used the identities of more than 65 people to obtain almost $1
                 million in Federal student aid at various colleges in Arizona, Colorado, Maryland, Nevada,
                 and Texas through distance education programs.

                 A student was sentenced to ten months incarceration and was ordered to pay restitution in
                 the amount of $55,500, stemming from his scheme to fraudulently obtain Federal student
                 aid by using fraudulent academic transcripts and his brother's identity. An OIG
                 investigation revealed that that the student used the fraudulent transcripts and his brother's
                 identity to gain admission to medical schools in Costa Rica. He was arrested after
                 receiving two FFEL program loan checks totaling $38,500.


FINANCIAL MANAGEMENT AND INTERNAL OPERATIONS
ACCOUNTABILITY
                 As discussed in our Management Challenges report, for nearly a quarter of a century,
                 effective financial management of its programs and operations has been a fundamental
                 challenge for the Department. Since 2002, the Department has made noteworthy progress
                 in improving its financial management systems. The Department received a clean audit
                 opinion for FY 2002, FY 2003, FY 2004, and did so again for FY 2005. While the
                 Department's improved financial management systems are helping it to identify a number
                 of problem areas and possible misappropriations of Federal funds, it has much to do to
                 fully achieve effective oversight, accountability, and enforcement throughout its programs
                 and operations.

                 FINANCIAL MANAGEMENT

Financial        In November, we transmitted the final audit reports covering the Department's and FSA's
Statement        FY 2005 comparative financial statements. Ernst & Young, LLP, Certified Public
Audits           Accountants (E&Y), conducted the audits and we monitored them to ensure their
                 compliance with Government Auditing Standards (GAS) and their timely completion. The
                 Department and FSA each earned an unqualified opinion on their respective comparative
                 financial statements. The Reports on Internal Control for both the Department and FSA
                 noted reportable conditions covering credit reform estimation and financial reporting
                 processes, and controls surrounding information systems. Neither audit noted instances of
                 noncompliance, exclusive of the Federal Financial Management Improvement Act of 1996
                 (FFMIA); however, they did note that the Department's and FSA's financial management
                 systems did not substantially comply with certain systems requirements of the FFMIA due
                 to the control weaknesses surrounding information systems.

Additional       During this reporting period, we also transmitted final reports covering the Department's
Work             FY 2005 special-purpose financial statements and the agreed-upon procedures report


                                                    18
                                                                    Semiannual Report To Congress: #52

                 covering the Department's FY 2005 Federal intragovernmental activity and balances.
                 E&Y performed the engagements and we monitored its efforts to ensure compliance with
                 GAS and/or other standards, as applicable. The Department earned an unqualified opinion
                 on its special-purpose financial statements, and the auditor's report disclosed no material
                 weaknesses in internal control over the financial reporting process for the statements and
                 no instances of noncompliance. The purpose of the intragovernmental activity and
                 balances report was to compare and identify differences between the Department's
                 reconciliation of intragovernmental transactions with its trading partners and the
                 Department's audited financial statements for FY 2005. This report was provided to the
                 U.S. Department of Treasury's Financial Management Service and the U.S. Government
                 Accountability Office (GAO) as required.

Drug Control     As required by Section 1704(d) of Title 21, U.S. Code, and in accordance with the Office
Funds            of National Drug Control Policy Circular Drug Control Accounting, we authenticated the
                 Department's accounting of FY 2005 drug control funds by expressing a conclusion on the
                 reliability of each assertion made in the Department's accounting. Based upon our review,
                 nothing came to our attention that caused us to believe that the Department's accounting
                 and assertions were not fairly stated in all material respects. Click here to review our
                 report.

                 INTERNAL OPERATIONS

IT Security      As required by OMB Memorandum M-05-15 "2005 Reporting Instructions for the Federal
                 Information Security Management Act (FISMA) and Agency Privacy Management," we
                 provided to OMB our OIG FISMA evaluation report. In general, our report concurs with
                 the Department's draft submission reviewed on October 3, 2005. However, our report did
                 not concur with the Department's draft submission as it relates to continued weaknesses in
                 outsourced data centers involving information security plans, programs, and practices. In
                 addition, we reported to OMB that the Department is unable to verify whether certain
                 Program of Action and Milestones corrective actions have been fully implemented, and the
                 Certification and Accreditation process has not ensured significant weaknesses were
                 addressed from prior OIG independent evaluations. Also, we did not concur with the
                 Department's characterization of the state of its incident-handling program and reported
                 that the program could be improved in many areas. This audit falls under exemption (b)(2)
                 of the Freedom of Information Act and, for security purposes and to maintain the integrity
                 of the Department's critical data, this audit report was not uploaded onto our Web site or
                 shared outside of official channels.

IT               Proper stewardship of Federal resources is a fundamental responsibility of agency
Contingency      managers and staff. Because of their reliance on information systems, agencies must give
                 special attention to IT contingency planning, a key aspect of IT asset management, to
Planning
                 ensure that the Department can continue to meet its core mission in the event of a
Program for      disruption. During this reporting period, we concluded an audit of the Department's IT
Asset            contingency planning program for asset classification in order to evaluate its process for
Classification   categorizing information and information systems to determine whether the categories are
                 properly assigned to ensure continuity of operations. We determined that the Department's
                 identification and classification activities inconsistently categorize IT assets and do not


                                                   19
                                                                      Semiannual Report To Congress: #52

                 ensure continuity of operations. In addition, current categorization activities do not fully
                 support a value-based capital investment management approach. The Department devotes
                 significant resources to carry out several IT asset identification and classification
                 processes. While these processes are individually useful and important, they are not
                 effectively integrated and there is a lack of coordinated oversight among the various
                 classification processes. As a result, the classification processes do not consistently
                 account for and rate Department IT assets, and considerable discrepancies exist. Based on
                 our findings, we made a number of recommendations, including that the Department
                 establish a fully-integrated process to identify and classify information resources, as well
                 as establish effective oversight controls. We also recommended that the Department
                 modify official guidance and provide training to ensure consistency in the application of
                 such guidance. The Department concurred with our finding and recommendations. This
                 audit falls under exemption (b)(2) of the Freedom of Information Act, thus for security
                 purposes and to maintain the integrity of the Department's critical data, this audit report
                 was not uploaded onto our Web site or shared outside of official channels.

Telecommu-       Our audit to determine the effectiveness of the Department's validation of the billing
nications        accuracy of its telecommunications services found that improvements in its internal
Billing          controls are necessary. Our audit disclosed that the Department has not performed a risk
                 assessment in this area; has not established appropriate controls to prevent future fraud and
Accuracy         misappropriation of resources; did not conduct regular inventories of telecommunications
                 resources; and did not document procedures for validating telecommunications billings. In
                 addition, we found that the Department did not allocate sufficient resources, contractor
                 support, or IT to ensure staff could effectively manage this area, thus it lacks assurance that
                 amounts paid for telecommunications services were accurate and that services provided
                 were appropriate. As a result, accountability in this area is hindered, and the risk of theft,
                 fraud, and misuse is increased. The Department concurred with the finding and provided a
                 proposed corrective action plan to address each of our recommendations. Click here to
                 review our report.

Internal Audit   OMB Circular A-50, entitled "Audit Followup" (Circular A-50) requires that each agency
Followup         designate a top management official to oversee audit followup, including resolution and
Process          corrective action. It also states that the audit followup official has the responsibility for
                 ensuring corrective actions are taken. The Department's designated followup official is the
                 Chief Financial Officer. We conducted an audit to evaluate the Department's controls to
                 ensure that agreed upon corrective actions have been taken in response to OIG-issued
                 internal audit reports. Our audit examined four offices: FSA, OPE, Office of the Chief
                 Information Officer (OCIO), and Office of the Chief Financial Officer (OCFO). In our last
                 SAR, No. 51, we reported our findings from three of those offices (FSA, OPE, and OCIO).
                 During this reporting period, we issued our final review of the OCFO audit followup
                 process, and a summary of all four audits. Overall, we found that the Department's audit
                 followup system was not always effective. The Department did not fulfill its
                 responsibilities to ensure that it had systems in place to followup on corrective actions,
                 monitor its compliance with Circular A-50, and ensure the overall effectiveness of its audit
                 resolution and followup system. In total, we found audit followup activities were not
                 effective for 16 of 23 audits reviewed. The risk remains that related programs may not be
                 effectively managed. We made several recommendations, including that OCFO develop
                 and implement a process to periodically report to the Department's senior management on


                                                     20
                                                               Semiannual Report To Congress: #52

            the adequacy of its systems for followup on internal corrective actions, and the overall
            effectiveness of the Department's internal audit followup system. The Department
            generally concurred with the finding and recommendations in our report. Click here to
            review our summary report, and here for the OCFO report.

Purchase    Following up on audit results discussed in our last SAR, No. 51, we concluded our final
Cards       Department-wide audit of purchase card use in the Office of the Secretary, the Office of the
            Deputy Secretary, the Office of the Under Secretary, the Office of Management, the Office
            of Intergovernmental and Interagency Affairs, and FSA. Our audit sought to assess the
            current effectiveness of internal control over the purchase card program and the
            appropriateness of current purchase card use in each office. While we found that each of
            these offices made improvements from the last OIG review of purchase card activity, all of
            these offices need to further improve internal control over purchase card use. We found
            that cardholders did not always obtain or maintain adequate documentation to support
            purchases, and that some of the offices had not established a central filing location for
            purchase card statements and supporting documentation as required by Department policy.
            In FSA, we also found that it did not always obtain adequate approval to support purchases
            in accordance with Department policies and FSA's internal policy. Overall, these issues
            occurred because cardholders were not always familiar with the policies and procedures
            established by the Department, and in some cases, the approving official did not ensure
            that the cardholders submitted complete supporting documentation prior to approving the
            statements for payment. We made a number of recommendations, including that each
            office hold its cardholders accountable for their responsibilities in the purchase card
            program by establishing a process to ensure cardholders are familiar with the Department's
            policies and requirements for obtaining and maintaining supporting documentation. Each
            office generally agreed with our findings and recommendations, and provided corrective
            actions to address our recommendations. Click here to review our reports.

Voluntary   Our inspection of the Department's Voluntary Leave Transfer Program sought to determine
Leave       whether the program was being conducted in compliance with the Department's Personnel
Transfer    Manual Instruction (PMI) 630-10, Voluntary Leave Transfer Program - Administrative
            Procedures. We found that the Department is conducting the program consistent with
Program     requirements of the PMI except in two areas: (1) it does not require the U.S. Department of
            the Interior (DOI), Bureau of Reclamation, Payroll Operations Division to send
            notification of the initial amount of available donated leave; and (2) there is minor
            deviation in the Leave Donation Form that it uses from the form included in the PMI. We
            recommended that the Department modify section 630-10 of the PMI to reflect how it
            provides information on available leave balances to recipients and their timekeepers, and
            that the PMI should be modified to include the updated Leave Donation Form. The
            Department agreed with our findings and recommendations, and proposed corrective
            action to address our recommendations. Click here to review our report.




                                              21
                                                                Semiannual Report To Congress: #52


OTHER NOTEWORTHY ACTIVITIES
             NONFEDERAL AUDITS
             Participants in Department programs are required to submit annual audits performed by
             independent public accountants (IPAs). We perform quality control reviews (QCRs) of
             these audits to assess their quality. We completed 42 QCRs of audits conducted by 40
             different IPAs, or offices of firms with multiple offices. We concluded that 17 (41 percent)
             were acceptable, 24 (57 percent) were technically deficient, and 1 (2 percent) was
             substandard. We have made 3 referrals of IPAs to State Boards of Accountancy for
             substandard work, based on QCRs reported in a prior semiannual report, and to the
             American Institute of Certified Public Accountants (AICPA), if they were AICPA
             members.

             GUIDE TO IMPROVING GRANT ACCOUNTABILITY
             OIG worked with a number of Federal, State, and local agencies on a U.S. Comptroller
             General Domestic Working Group project, compiling promising practices for improving
             grant accountability. The Group produced the Guide to Opportunities for Improving Grant
             Accountability (Guide). The Guide was "designed to provide government executives at the
             Federal, State and local levels with ideas for better managing grants."

             The Guide focuses on specific steps taken by various agencies in an effort to share useful
             and innovative approaches to grant accountability. The Guide is available to all
             government agencies and interested individuals. Click here to review the Guide.

             PRESIDENT'S COUNCIL           ON INTEGRITY AND         EFFICIENCY

PCIE Audit   Inspector General Higgins continues to chair the PCIE Audit Committee. Highlights this
Committee    reporting period include:

             National Single Audit Sampling Project

             OIG continues to lead an intergovernmental project to accurately assess the quality of all
             audits conducted under the Single Audit Act (Public Law 104-156). During this reporting
             period, the core work of the project continued, as we conducted QCRs of selected audits.
             We will compile the results over the next six months.

             Improper Payments Project

             The PCIE Audit Committee, through the Audit Committee of the Federal Audit Executive
             Council, solicited and coordinated submission of comments on behalf of the Federal audit
             community regarding OMB's improper payments guidance. OMB is updating its improper
             payments guidance to reflect new insights and practical lessons learned. The guidance will
             be incorporated into OMB Circular A-123, "Management's Responsibility for Internal
             Control," Appendix C, and will supersede OMB Memoranda M-03-7, Programs to
             Identify and Recover Erroneous Payments to Contractors, M-03-12, Allowability of


                                               22
                                                               Semiannual Report To Congress: #52

             Contingency Fee Contracts for Recovery Audits, and M-03-13, Improper Payments
             Information Act of 2002.

             PCIE/GAO Financial Statement Audit Roundtable

             During this reporting period, the Audit Committee organized and hosted the third annual
             PCIE/GAO Roundtable in March, to discuss issues and share experiences associated with
             the FY 2005 financial statement audit process. Presentations at the roundtable focused on
             implementation and compliance with the revised OMB Circular A-123, Management's
             Responsibility for Internal Control, new audit and accounting standards, new anti-
             deficiency reporting requirements, and reporting the costs of pending or threatened
             litigation. Participants included representatives from the IG community, the certified
             public accountant community, GAO, OMB, Federal Accounting Standards Advisory
             Board, the CFO community, and Department of Justice.

PCIE IT      As the sponsor of the PCIE IT Roundtable, OIG is responsible for coordinating
Roundtable   interagency meetings to share knowledge, procedures, and techniques to aid in facilitating
             effective IT audits, evaluations and inspections. The January 2006 IT Roundtable event
             showcased proactive data-mining techniques throughout the Federal government, with
             special emphases on the IG offices that have enjoyed great success in this area.
             Presentations covered a wide variety of topics ranging from how to get started, to the
             importance of developing a Continue Monitoring System. In a room filled to capacity,
             participants representing over 45 agencies attended and gave an overwhelmingly positive
             response.

             In November, OIG along with the U.S. Postal Service, and the U.S. Department of Justice,
             hosted the Cyber Summit - a first-of-its-kind, IG-community wide event. The two-day
             meeting explored cyber security issues affecting audits, investigations, legal, and IT
             mission support throughout the IG community.

Work Group   We are working with a number of other Federal agencies and OMB to revise OMB
on Federal   Bulletin 01-02 (Bulletin), Audits of Federal Financial Statements. The purpose of the
Financial    Bulletin is to provide guidance on the financial statement audits of Federal agencies. The
             Bulletin implements the audit provisions of the Chief Financial Officers (CFO) Act of
Statements   1990, as amended, the Government Management Reform Act of 1994, and the Federal
             Financial Management Improvement Act of 1996. The Bulletin was last revised in July
             2004 and OMB anticipates that a revised Bulletin may be issued in the spring of 2006.

             GAO ADVISORY COUNCIL

Government   In 2005, Inspector General Higgins was appointed to serve on the GAO Advisory Council
Auditing     on Government Auditing Standards (Advisory Council) that is comprised of experts in
Standards    financial and performance auditing from all levels of government, private enterprise,
             public accounting, and academia. The Advisory Council provides advice and guidance to
             the GAO Comptroller General on Government Auditing Standards (GAS) to help ensure it
             meets the needs of the audit community and the public it serves. GAS provides a
             framework for auditors so their work leads to improved government management,


                                               23
                                                  Semiannual Report To Congress: #52

decision-making, oversight and accountability. GAS also provides an overall framework to
ensure that auditors have the competence, integrity, objectivity, and independence in
planning, conducting, and reporting on their work. In December 2005, the Advisory
Council established its agenda to revise certain aspects of GAS. GAO intends to issue the
revised GAS in October 2006.




                                 24
                                                                                 Semiannual Report To Congress: #52


Reporting Requirements of the Inspector General Act, as amended
                                                                                                Table      Page
  Section                                       Requirement                                    Number     Number
5(a)(1) and
              Significant Problems, Abuses, and Deficiencies
5(a)(2)
              Activities and Accomplishments                                                                 1

5(a)(3)       Uncompleted Corrective Actions
              Recommendations Described in Previous Semiannual Reports on Which Corrective
                                                                                                  1          26
              Action Has Not Been Completed
5(a)(4)       Matters Referred to Prosecutive Authorities
              Statistical Profile                                                                 7          40
5(a)(5) and
              Summary of Instances Where Information Was Refused or Not Provided
6(b)(2)
5(a)(6)       Listing of Reports
              OIG Audit Services Reports on Department Programs and Activities                    2          27
              Other OIG Reports on Department Programs and Activities                             3          31
5(a)(7)       Summary of Significant Audits
              Activities and Accomplishments
5(a)(8)       Audit Reports Containing Questioned Costs
              Inspector General Issued Audit Reports with Questioned Costs                        4          32
5(a)(9)       Audit Reports Containing Recommendations That Funds Be Put to Better
              Use
              Inspector General Issued Audit Reports with Recommendations for Better Use of
                                                                                                  5          33
              Funds
5(a)(10)      Summary of Unresolved Audit Reports Issued Prior to the Beginning of
              the Reporting Period
              Unresolved Reports Issued Prior to October 1, 2005                                  6          32
5(a)(11)      Significant Revised Management Decisions
5(a)(12)      Significant Management Decisions with Which OIG Disagreed
              Unmet Intermediate Target Dates Established by the Department Under
5(a)(13)
              the Federal Financial Management Improvement Act of 1996




                                                            25
                                                                                       Semiannual Report To Congress: #52



Table 1: Recommendations Described in Previous SARs on Which
Corrective Action Has Not Been Completed
                                                                                      Total            Number of              Latest
  Report           Report Title (Prior Semiannual              Date      Date      Monetary        Recommendations            Target
 Number           Report [SAR] Number and Page)               Issued Resolved Findings             Open         Closed         Date
Section 5(a)(3) of the IG Act as amended requires a listing of each report resolved before the commencement of the reporting period for
which management has not completed corrective action. The reports listed below are OIG internal and nationwide audit reports.
NEW AUDITS SINCE LAST REPORTING PERIOD
FSA
A04D0014 Case Management and Oversight's                   9/30/04 12/23/04                         1              7         9/30/06
         Monitoring of Postsecondary Institutions
         (SAR 49, pg. 3)
OCFO
S19E0015    Management of the U.S. Department of          12/17/04     3/1/05                       0              7            *
            Education's Certification and Accreditation
            Contract (SAR 50, pg. 6)
OCIO
A07E0002 Audit of the U.S. Department of Education's       8/20/04     9/29/04                      3              0         5/31/06
         Efforts in Identifying IRM KSAs (SAR 49,
         pg. 10)
Office of the Deputy Secretary (ODS)
A09E0014 Departmental Actions to Ensure Charter     10/26/04 1/10/05                                3              3          7/3/06
         Schools' Access to Title I and IDEA Part B
         Funds (OESE and OSERS also designated as
         action official) (SAR 50, pg. 22)
AUDITS REPORTED IN PREVIOUS SEMIANNUAL REPORTS
FSA
A05A0025 Great Lakes Higher Education Guaranty    3/30/01              1/31/02                      2              5         4/28/06
         Corporation's Administration of the FFEL
         Program Federal and Operating Funds (SAR
         42, pg. 22)
A05D0001 Audit of Educational Credit Management   3/20/03              2/27/04 $103,000,000         5              2         8/31/06
         Corporation's Administration of the FFEL                                (see note 1)
         Program Federal and Operating Funds (SAR
         46, pgs. 7 & 8)
A05D0010 Oversight Issues Related to Guaranty     7/31/03              2/25/04                      0              5            *
         Agencies' Administration of the FFEL
         Program Federal and Operating Funds (SAR
         47, pg. 2)
OCFO
A03B0018 Audit of the U.S. Department of Education's 10/24/01 3/26/02                               0              2            *
         Discretionary Grant Monitoring Process
         (SAR 44, pg. 3)
A07D0005 Audit of the U.S. Department of Education's 4/1/04 6/30/04                                 2              3        12/29/06
         Oversight of Grantees Subject to the
         Restricted Indirect Cost Rate Provisions in
         34 C.F.R., Parts 75 & 76 (see note 2) (SAR
         49, pg. 14)



                                                                  26
                                                                                       Semiannual Report To Congress: #52

Table 1: Recommendations Described in Previous SARs on Which
Corrective Action Has Not Been Completed (Cont.)
                                                                          Total                      Number of             Latest
 Report        Report Title (Prior Semiannual           Date   Date     Monetary                  Recommendations          Target
 Number       Report [SAR] Number and Page)            Issued Resolved Findings                   Open      Closed          Date
A17D0001 Audit to Determine if the U.S. Department of 10/6/03 4/8/04       $28                     1           8           9/30/06
         Education Contract Payments Were Being                        (see note 3)
         Made from the Proper Appropriated Funds
         for the period January 22, 2002, through
         December 31, 2002 (SAR 48, pg. 16)
OVAE
A03D0013 Audit of Perkins III Performance Data at          5/24/04      9/9/04                       0            8          *
         OVAE (SAR 49, pg. 16)
   * Closure of audit was not completed in AARTS by the end of reporting period (3/31/2006).
   Note 1 - U. S. Department of Education has recovered the excess reserve funds on 2/10/2004 in the amount of $103,000,000.
   Note 2 - We identified $4,600,000 in Better Use of Funds (1-Time) for audit control number A07D0005.
   Note 3 - U.S. Department of Education have recovered funds in the amount of $28.



Table 2: OIG Audit Services Reports on Department Programs and
Activities (October 1, 2005, to March 31, 2006)
  Report                                                                 Date    Questioned Unsupported              No. of
 Number                           Report Title                          Issued     Costs*          Costs        Recommendations
Section 5(a)(6) of the IG Act requires a listing of each report completed by OIG during the reporting period.
AUDIT REPORTS
FSA
A04E0006 Death and Total and Permanent Disability Discharges           11/14/05                                        4
         of FFEL and Direct Loan Program Loans (OPE also
         designated as action official)
A04F0008 Florida Agricultural and Mechanical University's              3/30/06    $97,697                              6
         Administration of the Student Financial Assistance
         Programs
A05F0013 FSA's Internal Control over Initial Exceptional                2/2/06                                         4
         Performance Applications
A05F0017 Sanford-Brown Institute - Atlanta's Compliance with           1/18/06                                         2
         the 90-10 Rule for the 2003 Fiscal Year
A07F0012 Sanford-Brown College's Compliance with the 90-10             11/22/05                                        2
         Rule for the 2003 Fiscal Year
A09F0008 University of Phoenix's Processing of Return of Federal       12/22/05 (see note 1)                           3
         Student Aid for HEA, Title IV Programs
A17F0005 Financial Statement Audits Fiscal Years 2004 and 2005         11/18/05                                        5
         FSA (OCFO also designated as action official)
A19F0016 Controls Over Purchase Card Use in FSA                        10/20/05                                        5
OCFO
A03F0010 The Education Leaders Council's Drawdown and           1/31/06           $622,243       $138,327             12
         Expenditure of Federal Funds (Office of Innovation and
         Improvement (OII) also designated as action official)
A05F0015 The U.S. Department of Education's Monitoring of       3/22/06                                                7
         Adherence to Matching Requirements




                                                                  27
                                                                                   Semiannual Report To Congress: #52

Table 2: OIG Audit Services Reports on Department Programs and
Activities (October 1, 2005, to March 31, 2006) (Cont.)
 Report                                                             Date      Questioned Unsupported        No. of
 Number                       Report Title                         Issued      Costs*       Costs      Recommendations
A05F0020 Indiana State University Compliance with the Ronald       1/6/06      $38,884                        5
         E. McNair Postbaccalaureate Achievement Program
         Provisions
A09F0010 Pittsburg Pre-School and Community Council, Inc.'s        3/17/06     $119,908   $790,309           21
         Use of Early Reading First and Migrant Education
         Even Start Grant Funds (OESE also designated as
         action official)
A09F0020 Sheldon Jackson College's Administration of Fund for      2/24/06                                    2
         the Improvement of Postsecondary Education Grants
         (OPE also designated as action official)
A17F0004 Financial Statement Audits Fiscal Years 2004 and 2005     11/15/05                                   5
         U.S. Department of Education (FSA also designated as
         action official)
A17F0006 Financial Statement Audits for Fiscal Years 2004 and      11/18/05                                 None
         2005 U.S. Department of Education Special Purpose
         Financial Statements
A19E0017 Audit of the U.S. Department of Education's Followup      2/27/06                                    4
         Process for Internal Audits
A19F0004 Audit Followup Process for OIG Internal Audits in the     11/4/05                                    3
         OCFO
OCIO
A11F0002 Review of the U.S. Department of Education’s Incident 10/6/05                                        9
         Handling Program and EDNet Security Controls (The
         report designated OCIO as lead action official and
         OCFO and FSA as other action officials.)
A11F0006 Audit of the U.S. Department of Education's IT        1/31/06                                        4
         Contingency Planning Program - Asset Classification
A19F0009 Telecommunications Billing Accuracy                   2/1/06                                         7
Office of Communications and Outreach (OCO)
A19F0020 Controls Over Purchase Card Use in the Office of          10/25/05                                   3
         Intergovernmental and Interagency Affairs
ODS
A06F0006 State Scholars Initiative Cooperative Agreement           1/17/06                                    3
         Between the Center for State Scholars and the U.S.
         Department of Education
OESE
A02E0030 William Floyd Union Free School District Allowability     12/19/05    $55,876    $4,622,812         11
         of Title I Salary and Salary-Related Expenditures
A02F0030 William Floyd Union Free School District Allowability     3/30/06     $67,574     $79,365            8
         of Title I Non-Salary Expenditures
A03F0002 The State of Delaware's Compliance with NCLB Public       11/22/05                                  10
         School Choice and Supplemental Educational Services
         Provisions
A04F0001 Review of the Alabama State Department of                 10/3/05                                  None
         Education's Reading First Program
A04F0011 Audit of the Georgia Department of Education's            1/12/06                                    7
         Migrant Education Program



                                                              28
                                                                                     Semiannual Report To Congress: #52

Table 2: OIG Audit Services Reports on Department Programs and
Activities (October 1, 2005, to March 31, 2006) (Cont.)
 Report                                                               Date      Questioned Unsupported        No. of
 Number                        Report Title                          Issued       Costs*      Costs      Recommendations
A06F0013 Oklahoma State Department of Education's Migrant            3/21/06     $509,000                       3
         Education Program
A06F0020 Data Quality Review of the Texas Consolidated State         3/21/06                                    1
         Performance Report
A07F0014 The U.S. Department of Education's Activities Relating      12/29/05                                   4
         to Consolidating Funds in Schoolwide Programs
         Provisions
A09F0003 California's Inclusion of Migrant and Limited English       10/25/05                                  10
         Proficient Students in the Statewide Assessment and
         Accountability System
A09F0009 ARC Associates' and Oakland Unified School District's       10/13/05     $1,860                        5
         Compliance With Supplemental Educational Services
         Provisions (OII also designated as action official)
A09F0012 Learning Excitement Incorporated and Stockton               11/10/05                                   3
         Unified School District's Compliance With
         Supplemental Educational Services Provisions (OII is
         also designated action official)
A09F0013 Professional Tutors of America and Los Angeles              10/27/05                                   2
         Unified School District's Compliance With
         Supplemental Educational Services Provisions (OII is
         also designated action official)
A09F0019 San Diego City Schools' Compliance With                     3/27/06                                    1
         Supplemental Educational Services Provisions (OII is
         also designated action official)
A09F0022 Progressive Learning and Salinas Union High School          2/27/06                                    1
         District Compliance With ESEA's Supplemental
         Educational Services Provisions (OII is also designated
         action official)
Office of Management (OM)
A19F0014 Controls Over Purchase Card Use in the OM                   10/25/05                                   6
Office of the Secretary (OS)
A19F0015 Controls Over Purchase Card Use in the OS, ODS, and 11/3/05                                            5
         Office of the Under Secretary (OUS) (The report
         designated ODS as action official, but OS resolved
         report's recommendations)
Office of Special Education and Rehabilitative Services (OSERS)
A07F0016 Kansas State Department of Education's Maintenance's         2/6/06                                    5
         of Effort Under the IDEA, Part B
ALTERNATIVE PRODUCTS
FSA
A05G0012 Edison State Community College's Compliance with            3/15/06
         Selected Requirements of the Student Financial
         Assistance programs authorized under Title IV of the
         HEA (Audit Closeout Letter)
A07F0025 Missouri Higher Education Loan Authority's                   2/2/06
         (MOHELA's) Compliance with Requirements for the
         FFEL Programs (Audit Closeout Letter)



                                                                29
                                                                                      Semiannual Report To Congress: #52

Table 2: OIG Audit Services Reports on Department Programs and
Activities (October 1, 2005, to March 31, 2006) (Cont.)
 Report                                                                Date      Questioned Unsupported             No. of
 Number                         Report Title                          Issued      Costs*       Costs           Recommendations
OCFO
A17F0008 Federal IntergovernmentaL Activity and Balances              12/2/05
         Agreed-Upon Procedures Report (Attestation Report)
F03G0008 Reading First Monitoring Proposal (Pre-award Attest          3/30/06                                      (see note 2)
         Service)
F03G0009 Reading First Monitoring Proposal (Pre-award Attest          3/30/06                                      (see note 2)
         Service)
F03F0024 Education Statistics Service Institute Proposal              10/12/05                                     (see note 2)
         Submitted Under Request for Proposal #05-R0011
         (Pre-award Attest Service)
F03F0025 Education Statistics Service Institute Proposal              10/12/05                                     (see note 2)
         Submitted Under Request for Proposal #05-R0011
         (Pre-award Attest Service)
OESE
A05G0001 Audit of the Illinois State Board of Education               3/16/06
         (Audit Closeout Letter)
S06E0027 Compliance Requirements within Title I, Part A of the        3/29/06                                      (see note 3)
         NCLB (Management Information Report State and
         Local No. 06-01)
ODS
X07F0002 Overlapping Services in the U.S. Department of     2/27/06                                                (see note 3)
         Education's Office of Postsecondary Education
         Programs (Management Information Report - OUS also
         designated as action official)
Office of Planning, Evaluation and Policy Development
B17G0002 Office of Inspector General's Independent Report on          1/27/06
         the U.S. Department of Education's Detailed
         Accounting of Fiscal Year 2005 Drug Control Funds,
         dated January 25, 2006 (Attestation Report)
  * For purposes of this schedule, questioned costs include other recommended recoveries. Please see footnote under Table
  4 for additional information regarding questioned and unsupported costs.

  Note 1: Audit Report A09F0008 identified a one-time better use of funds (BUF) of $10,000,000.
  Note 2: In addition, Table 2 excludes monetary adjustments recommended in Pre-award Attest Services reporting. Since the
           results of Pre-award Attest Services reports are used in the contract negotiation process, the contents of these reports
          are considered to be confidential. Since the results of Pre-award Attest Services reports are used in the contract
          negotiation process, the contents of these reports are considered to be confidential.
  Note 3: Management Information Report S06E0027 made one non-monetary suggestion. Management Information Report
          X07F0002 made three non-monetary suggestions.




                                                                 30
                                                                                       Semiannual Report To Congress: #52

Table 2: OIG Audit Services Reports on Department Programs and
Activities (October 1, 2005, to March 31, 2006) (Cont.)
 Report                                                                 Date    Questioned Unsupported               No. of
 Number                          Report Title                          Issued    Costs*       Costs             Recommendations
   DESCRIPTION OF ALTERNATIVE PRODUCTS

   Attestation reports convey the results of attestation engagements performed within the context of their stated scope and
   objective(s). Attestation engagements can cover a broad range of financial or non-financial subjects and can be part of a financial
   audit or performance audit. They include the examination, review, or performance of agreed-upon procedures on a subject matter
   or an assertion about a subject matter and reporting on the results.
   Audit closeout memoranda/letters are issued to provide written notification to auditees of audit closure when the decision is
   made to close an assignment without issuing an audit report.
   Interim audit memoranda/letters are used to notify the Department management or the audited entity of a serious and urgent
   condition or issue identified during an on-going audit assignment when there is a strong likelihood that waiting until the audit
   report’s issuance would result in the loss of an opportunity to prevent or curtail significant harm to the the Department interest.
   Two interim audit memoranda were issued during SAR52, but are not publicly distributed.
   Management information reports provide the Department management with information derived from audits (when the
   issuance of an audit report is not appropriate) or special projects that may be useful in its program administration or conduct of
   program activities.
   Pre-award Attest Services are provided by OIG in response to requests by the Department contracting or program office staffs.
   These include performing field-pricing support or making an assessment of an offeror’s accounting system.




Table 3: Other OIG Reports on Department Programs and Activities
(October 1, 2005, to March 31, 2006)
    Report Number                                             Title of Report                                        Date Issued
Section 5(a)(6) of the IG Act requires a listing of each report completed by OIG during the reporting period.
FSA
       I13F0015           Pseudo Social Security Numbers (Inspection Memorandum)                                              3/27/06
OCFO
       L05G0016           Chicago Public Schools: Charges to Federal Accounts for Pension Contributions                       3/23/06
                          (State and Local Alert Memorandum 06-03)
OM
       I13F0003           Review of the Department's Voluntary Leave Transfer Program (Inspection                            11/25/05
                          Memorandum)
OPE
       I13F0016           Information Security Requirements For Eligibility To Participate In The Title IV                     2/3/06
                          Programs (Inspection Alert Memorandum - FSA also designated action official)
       L02F0019           Caribbean University's Use of Title V Funds (State and Local Alert Memorandum                      10/11/05
                          06-01)
Office of Safe and Drug Free Schools (OSDFS)
       L03G0002           State and Local Compliance with the Unsafe School Choice Option (State and Local                     2/9/06
                          Alert Memorandum 06-02)
Other Federal Agency
       A02E0017           E-Rate Funded Telecommunication Charges at the New York City Department of
                          Education (conducted via a MOU with the Federal Communications Commission
                          OIG and the Universal Service Administration Company).
       A11F0001           U.S. Department of Education Office of Inspector General 2006 FISMA Report to
                          OMB. (Evaluation reported to OMB, using its requested template format).




                                                                  31
                                                                                          Semiannual Report To Congress: #52

Table 3: Other OIG Reports on Department Programs and Activities
(October 1, 2005, to March 31, 2006) (Cont.)
         Report Number                                         Title of Report                                              Date Issued
     DESCRIPTION OF TABLE 3 PRODUCTS

     Inspections are processes aimed at evaluating, reviewing, studying, and analyzing the programs and activities of the Department
     for the purposes of providing information to managers for decision making, for making recommendations for improvements to
     programs, policies or procedures, and for administrative action.
     Alert memoranda are prepared when a serious condition requiring immediate Department management action that is either
     outside the agreed-upon objectives of an on-going audit or inspection assignment or is identified while engaged in work not related
     to an on-going assignment when audit or inspection reports will not be issued. Alert memoranda are not on the OIG website and
     are not publicly distributed.

Table 4: Inspector General Issued Audit Reports with Questioned
Costs3
                                                                                                          Questioned1 Unsupported2
                                                                                            Number           Costs             Costs
Section 5(a)(8) of the IG Act requires for each reporting period a statistical table showing the total number of audit reports, the total
dollar value of questioned and unsupported costs, and responding management decision.
A.       For which no management decision has been made before the
         commencement of the reporting period (as adjusted)                                    62         $199,864,475 $132,118,965
B.       Which were issued during the reporting period                                          8           $7,143,855        $5,630,813
                 Subtotals (A + B)                                                             70          $207,008,330       $137,749,778
C.          For which a management decision was made during the reporting period                9              $4,348,162       $1,557,853
            (i) Dollar value of disallowed costs                                                               $4,348,162       $1,557,853
            (ii) Dollar value of costs not disallowed                                                                 $0                  $0
D.          For which no management decision has been made by the end of the                   61          $202,660,168       $136,191,925
            reporting period
E.          For which no management decision was made within six months of issuance            53          $195,516,313       $130,561,112
     1 Questioned costs are costs that are questioned because of either an alleged violation of a provision of a law, regulation,
     contract, grant, cooperative agreement, or other agreement or document governing the expenditure of funds or a finding that the
     expenditure of funds for the intended purpose is unnecessary or unreasonable. Other recommended recoveries are funds
     recommended for reasons other than questioned costs. Since the IG Act does not provide for this type of monetary finding, other
     recommended recoveries are combined with the "questioned costs" category for reporting in the SAR. The category is usually
     used for findings involving recovery of outstanding funds and/or revenue earned on Federal funds. The amount also includes any
     interest due the Department resulting from auditee's use of funds. In addition, amounts reported for this category are combined
     with unsupported costs for reporting in the SAR.
     2
       Unsupported costs are costs that are questioned because, at the time of the audit, such costs were not supported by adequate
     documentation.
     3
         None of the audits reported in this table were performed by the Defense Contract Audit Agency.

Table 5: Inspector General Issued Audit Reports with
Recommendations For Better Use of Funds1
                                                                                                        Number            Dollar Value
Section 5(a)(9) of the IG Act requires for each reporting period a statistical table showing the total number of audit reports and the total
dollar value of recommendations that funds be put to better use by management.
A.       For which no management decision has been made before the commencement of the                    6                  $238,967,843
         reporting period (as adjusted)
B.       Which were issued during the reporting period                                                    1                   $10,000,000
                 Subtotals (A + B)                                                                         7                   $248,967,843
C.          For which a management decision was made during the reporting period                           3                     $7,919,067



                                                                    32
                                                                                          Semiannual Report To Congress: #52

Table 5: Inspector General Issued Audit Reports with
Recommendations For Better Use of Funds1
                                                                                                    Number              Dollar Value
             (i) Dollar value of recommendations that were agreed to by management                                             $7,919,067
             (ii) Dollar value of recommendations that were not agreed to by management                                                0
D.           For which no management decision has been made by the end of the reporting                   4                  $241,048,776
             period
E.           For which no management decision was made within six months of issuance                      3                  $231,048,776
     1   None of the audits reported in this table were performed by the Defense Contract Audit Agency.

Table 6: Unresolved Reports Issued Prior to October 1, 2005
                                                                                                                Total           No. of
 Report                                         Report Title                                        Date      Monetary        Recommen-
 Number                      (Prior Semiannual Report [SAR] Number and Page)                       Issued     Findings          dations
Section 5(a)(10) of the IG Act requires a listing of each report issued before the commencement of the reporting period for which no
management decision had been made by the end of the reporting period. (Status below represents comments provided by the
Department, comments agreed to, or documents obtained from the Department’s tracking system, (AARTS)).
New Since Last Reporting Period
FSA
A02E0003 The University of the Virgin Islands' Administration of Title IV Student Financial 4/8/05  $102,077                      25
         Assistance Programs Needs Improvement (SAR 51, pg. 25)
         Status: No comments were provided to OIG.
A03F0001 School Eligibility Channel's Initial Review and Quality Control Review Process for 9/20/05                                4
         Electronic Submissions of Institutions' Financial Statements Through the
         Department's eZ-Audit System (SAR 51, pg. 25)
         Status: FSA informed us that OIG and FSA are negotiating over one corrective
         action on which OIG has non-concurred.
A05E0017 Special Allowance Payments to New Mexico Educational Assistance Foundation 5/24/05 $18,415,862                            7
         for Loans Funded by Tax-Exempt Obligations (SAR 51, pg. 25)
         Status: FSA did issue a final audit determination prior to 3/31/06, although the
         required documentation was not available in AARTS as of 3/31/2006.
A09E0015 University of Phoenix's Processing of Student Financial Aid Disbursements for the 8/24/05  $341,994                       7
         Higher Education Act, Title IV Programs (SAR 51, pg. 26)
         Status: No comments were provided to OIG.
OCFO
A02E0008 U.S. Department of Education Funds Disbursed for New York City Department of 6/14/05                 $6,756,824           8
         Education Telecommunication Services (SAR 51, pg. 26)
         Status: Final decision is pending review of OIG work papers.
A09E0027 Guam Department of Education's Reported Costs for Consolidated Grants to        4/18/05               140,176            14
         Insular Areas and the Special Education Grants to States-Part B (OESE and OSERS
         also designated as action officials) (SAR 51, pg. 26)
         Status: No comments were provided to OIG.
OESE
A02E0031 Wyandanch Union Free School District's ESEA, Title I, Part A and Title II Non-            9/14/05    $6,802,887           8
         Salary Expenditures for the period July 1, 1999, through June 30, 2004 (SAR 51,                      (see note 1)
         pg. 27)
         Status: AARTS data: audit was placed on administrative stay on 3/2/2006.




                                                                    33
                                                                                 Semiannual Report To Congress: #52

Table 6: Unresolved Reports Issued Prior to October 1, 2005 (Cont.)
                                                                                                         Total          No. of
 Report                                      Report Title                                     Date     Monetary       Recommen-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                      Issued    Findings         dations
A02F0006 New Jersey Department of Education's Compliance with Title I, Part A, of the        9/14/05                       4
         ESEA, as amended by the NCLB, Public School Choice and Supplemental
         Educational Services Provisions for the 2004-2005 School Year (OII also
         designated as action official) (SAR 51, pg. 27)
         Status: OESE submitted an administrative stay request on 3/24/2006 and OCFO/
         PAG approved the request on 3/30/2006. The anticipated resolution date of this
         audit was 3/14/2006.
A05F0007 The Michigan Department of Education's Compliance with the Public School            8/2/05     $18,532           4
         Choice and Supplemental Educational Services Provisions of the NCLB (OII also
         designated as action official) (SAR 51, pg. 27)
         Status: OESE submitted an administrative stay request on 3/24/2006 and OCFO/
         PAG approved the request on 3/30/2006. The anticipated resolution date of this
         audit was 2/2/2006.
A06E0018 Title I funds administered by the East Baton Rouge Parish School District for the   6/8/05     $148,246          4
         period July 1, 2001, through December 31, 2003 (SAR 51, pg. 27)                               (see note 2)
         Status: AARTS data: administrative stay was extended on 1/4/2006 and 3/15/2006.
A06F0002 Louisiana Department of Education and Four Selected Local Educational Agencies      8/4/05                       2
         for the period July 1, 2001, through December 31, 2003 (SAR 51, pg. 27)
         Status: ARTS data: audit was placed on administrative stay on 1/4/2006 and
         extended on 3/15/2006.
A07F0003 Illinois State Board of Education's Compliance with the Public School Choice and    8/23/05                      4
         Supplemental Educational Services Provisions of the NCLB (OII also designated as
         action official) (SAR 51, pg. 27)
         Status: OESE submitted an administrative stay request on 3/24/2006 and OCFO/
         PAG approved the request on 3/30/2006. The anticipated resolution date of this
         audit was 2/23/2006.
A09F0002 Nevada Department of Education's Compliance with the Public School Choice and       7/14/05                      8
         Supplemental Educational Services Provisions (OII also designated as action
         official) (SAR 51, pg. 27)
         Status: OESE submitted an administrative stay request on 3/24/2006 and OCFO/
         PAG approved the request on 3/30/2006. The anticipated resolution date of this
         audit was 1/14/2006.
OSDFS
A03E0008 The State of New Jersey's Compliance With The Unsafe School Choice Option          8/30/05                       7
         Provision (SAR 51, pg. 28)
         Status: OSDFS informed us that the audit was resolved and PDL issued on 3/31/
         2006. The required documentation for resolution of this audit was not available in
         AARTS as of 3/31/2006.
A04E0007 Georgia Department of Education's Compliance with the Unsafe Schools Choice        6/7/05                        4
         Option Provision (SAR 51, pg. 28)
         Status: OSDFS informed us that the audit was resolved and PDL issued on 3/31/
         2006. The required documentation for resolution of this audit was not available in
         AARTS as of 3/31/2006.
A06E0028 Texas Department of Education's Compliance with the Unsafe School Choice           6/15/05                       7
         Option (SAR 51, pg. 28)
         Status: OSDFS informed us that the audit was resolved and PDL issued on 3/31/
         2006. The required documentation for resolution of this audit was not available in
         AARTS as of 3/31/2006.




                                                              34
                                                                                    Semiannual Report To Congress: #52

Table 6: Unresolved Reports Issued Prior to October 1, 2005 (Cont.)
                                                                                                             Total        No. of
 Report                                   Report Title                                       Date          Monetary     Recommen-
 Number               (Prior Semiannual Report [SAR] Number and Page)                       Issued         Findings       dations
A07E0027 Iowa Department of Education's Compliance with the Unsafe Schools Choice           6/14/05                          6
         Option Provision (SAR 51, pg. 28)
         Status: OSDFS informed us that the audit was resolved and PDL issued on 3/31/
         2006. The required documentation for resolution of this audit was not available in
         AARTS as of 3/31/2006.
OSERS
A02E0020 The Virgin Islands Department of Health's Administration of the Infants and      9/28/05                          17
         Toddlers Program (see note 3) (SAR 51, pg. 28)
         Status: OSERS informed us that the audit was placed on administrative stay on 2/
         17/2006 to allow time for receipt and review of additional documentation.
Reported in Previous Semiannual Report
FSA
A02B0026 Audit of Taylor Business Institute's Administration of Title IV Student Financial       7/8/03     $2,089          5
         Assistance Programs (SAR 47, pg. 13)
         Status: FSA informed us that the audit was closed 3/17/2005; working on getting
         audit closed in AARTS due to technical problems. The required documentation for
         resolution of this audit has not been submitted for OIG review through AARTS.
A04B0015 Review of Cash Management and Student Financial Assistance Refund Procedures           9/26/02    $997,313         7
         at Bennett College (OPE designated as collateral action office for this report)
         (SAR 45, pg. 16)
         Status: FSA informed us a duplicate audit is listed in AARTS. This audit had two
         parts: OCFO/PAG was responsible for 04B0015G; while FSA is responsible for
         04B0015H.
A04B0019 Advanced Career Training Institute's Administration of the Title IV HEA Programs       9/25/03    $7,472,583      14
         (SAR 47, pg. 13)
         Status: No Change in status. FSA previously informed us that the audit is still
         being reviewed by FSA Atlanta Case Team.
A04E0001 Review of Student Enrollment and Professional Judgment Actions at Tennessee            9/23/04    $2,458,347       7
         Technology Center at Morristown, TN (SAR 49, pg. 14)
         Status: Audit still on administrative stay; administrative stay extended until 6/23/
         2006.
A04E0003 Review of Student Enrollment, Professional Judgment Actions, and Dependency            11/8/04     $26,400         3
         Overrides at Salem College (SAR 50, pg. 21)
         Status: FSA informed us that the audit was closed on 5/20/2005; working on
         getting audit closed in AARTS. The required documentation for resolution of this
         audit was not available in AARTS by 9/30/2005.
A05C0015 Audit of American School of Technology's Administration of the Title IV, HEA           3/21/03    $1,311,249      13
         Programs, Columbus, Ohio (SAR 46, pg. 12)
         Status: FSA informed us that it made changes to the ACD; currently waiting on
         OIG review. On 4/7/2006 the ACD was updated in AARTS.
A05D0020 Audit of the Administration of the Federal Pell Grant program by The Alexander         12/11/03   $1,718,869       1
         Institute during the period September 28, 2000, through June 30, 2003 (SAR 48, pg.
         17)
         Status: FSA informed us that the audit closed 3/31/2006; working on getting audit
         closed in AARTS. The required documentation needed for resolution of this audit
         was not generated through AARTS by 3/31/2006.




                                                                35
                                                                                    Semiannual Report To Congress: #52

Table 6: Unresolved Reports Issued Prior to October 1, 2005 (Cont.)
                                                                                                             Total   No. of
 Report                                      Report Title                                        Date     Monetary Recommen-
 Number                (Prior Semiannual Report [SAR] Number and Page)                          Issued     Findings  dations
A05E0013 Audit of the Administration of the Student Financial Assistance Programs at the Ivy    2/25/05   $1,645,160    3
         Tech State College Campus in Gary, Indiana, during the period July 1, 2002,
         through June 30, 2003 (SAR 50, pg. 21)
         Status: No change in status. FSA previously informed us that the audit is being
         reviewed by FSA Chicago Case Team.
A0670005 Professional Judgment at Yale University (SAR 36, pg. 18)                              3/13/98    $5,469      3
         Status: No change in status. FSA previously informed us that it is awaiting a
         policy decision to address and resolve this finding in the final audit determination
         letter.
A0670009 Professional Judgment at University of Colorado (SAR 37, pg. 17)                       7/17/98    $15,082     4
         Status: No change in status. FSA previously informed us that it is awaiting a
         policy decision to address and resolve this finding in the final audit determination
         letter.
A06A0003 International Business College's Administration of Title IV Student Financial          3/28/01   $461,035     4
         Assistance Programs (SAR 42, pg. 22)
         Status: No change in status. FSA previously informed us that the audit is still
         being reviewed by the FSA Dallas Case Team.
A06B0014 Audit of United Education Institute's Compliance with the Title IV, Student            9/6/01     $7,285      1
         Financial Assistance, Verification Requirements (SAR 43, pg. 12)
         Status: FSA informed us that this audit was closed in CARS (the Department's
         prior tracking system); working on getting audit closed in AARTS.
A06D0018 Audit of Saint Louis University's Use of Professional Judgment for the Two-Year        2/10/05   $1,458,584   6
         period from July 2000, through June 2002 (SAR 50, pg. 21)
         Status: FSA informed us that the audit is still on administrative stay;
         administrative stay extended until 6/10/2006.
A0723545 State of Missouri, Single Audit Two Years Ended June 30, 1991                          4/1/93    $1,048,768   18
         Status: No Change in status. FSA/ Financial Partners Service (FPS) previously
         informed us that it is working with the Office of General Counsel (OGC) and OIG
         on the resolution of the Missouri audits. FSA stated that draft responses were
         forwarded to OGC for review and comment, and are awaiting OGC comments.
A0733123 State of Missouri, Single Audit Year Ended June 30, 1992                               3/7/94    $187,530     18
         Status: No Change in status. FSA/FPS previously informed us that it is working
         with OGC and OIG on the resolution of the Missouri audits. FSA stated that draft
         responses were forwarded to OGC for review and comment, and are awaiting OGC
         comments.
A07D0026 Audit of Kaw Area Technical School (SAR 49, pg. 14)                                    5/20/04   $882,445     3
         Status: FSA informed us that it made changes to ACD and uploaded correct FAD;
         currently waiting on OIG review. However the revised documentation required for
         resolution of this audit was not available for OIG to review by 3/31/2006.
A0970015 Associated Technical College Eligibility of Institutions to Participate in Title IV    9/9/98    $8,600,000   7
         Programs & Other Issues (SAR 37, pg. 16)
         Status: FSA/SEC/CMO previously informed us that its senior managers are
         thoroughly reviewing the 90/10 calculations before approving the FAD letter.
A09D0024 American River College's Compliance with Student Eligibility Requirements for          12/1/04   $3,024,665   3
         Title IV Student Aid Programs (SAR 50, pg. 21)
         Status: FSA informed us that the audit is still being reviewed by FSA San
         Francisco Case Team.




                                                                36
                                                                                   Semiannual Report To Congress: #52

Table 6: Unresolved Reports Issued Prior to October 1, 2005 (Cont.)
                                                                                                            Total        No. of
 Report                                   Report Title                                          Date      Monetary     Recommen-
 Number                (Prior Semiannual Report [SAR] Number and Page)                         Issued     Findings       dations
N0690010 Inspection of Parks College's Compliance with Student Financial Assistance            2/9/00     $169,390          1
         Requirements (SAR 40, pg. 18)
         Status: FSA Dallas Case Team denied school's recertification on December 31,
         1999. School closed February 5, 2000.
OCFO
A05D0017 Audit of the University of Illinois at Chicago's Gaining Early Awareness and          1/14/04    $1,018,212       4
         Readiness for Undergraduate Programs Project (OPE also designated as action
         official) (SAR 48, pg. 15)
         Status: OCFO/PAG informed us that it is currently resolving some policy issues
         regarding this audit in coordination with OGC and OPE. Expected completion
         date: September 30, 2006.
A05D0018 Audit of the Cesar Chavez Middle School's Use of U.S. Department of Education         10/30/03   $196,805         3
         Funds for the period July 1, 2001, through June 30, 2002 (OII also designated as
         action official) (SAR 48, pg. 15)
         Status: OCFO/PAG informed us that a draft program determination letter is with
         OGC for review. Expected completion date: May 31, 2006.
A05D0023 Audit of the Aztlan Academy's use of U.S. Department of Education Funds for the       10/14/03   $148,440         2
         period July 1, 2001, through June 30, 2002 (OII also designated as action official)
         (SAR 48, pg. 15)
         Status: OCFO/PAG informed us that a draft program determination letter is with
         OGC for review. Expected completion date: May 31, 2006.
A05D0029 Audit of the Sonoran Desert School's use of U.S. Department of Education Funds        10/31/03    $37,452         4
         for the period September 1, 2001, through August 31, 2002 (OII also designated as
         action official) (SAR 48, pg. 16)
         Status: OCFO/PAG informed us that it is in process of preparing draft PDL.
         Expected completion date: June 30, 2006.
A05D0041 University of Illinois at Chicago's Upward Bound Project (OPE also designated as      12/20/04   $223,057         8
         action official) (SAR 50, pg. 22)
         Status: OCFO informed us that it is reviewing additional information provided by
         auditor and auditee. Expected completion date: September 30, 2006.
A05E0002 Audit of the University of Illinois at Chicago's Student Support Services Program     12/15/04   $260,050         6
         (OPE also designated as action official) (SAR 50, pg. 22)
         Status: OCFO informed us that it is reviewing additional information provided by
         auditor and auditee. Expected completion date: September 30, 2006.
A05E0018 University of Illinois at Chicago's Upward Bound Math and Science Project (OPE        12/17/04   $274,493         7
         also designated as action official) (SAR 50, pg. 22)
         Status: OCFO informed us that it is reviewing additional information provided by
         auditor and auditee. Expected completion date: September 30, 2006.
A06D0023 Audit of the Dallas Independent School District's Administration of the Bilingual      8/4/04    $1,788,853       2
         Education-Systemwide Improvement Grant for the period September 1, 1999,
         through August 31, 2003 (OELA also designated as action official) (SAR 49, pg.
         14)
         Status: OCFO/PAG informed us it is preparing another PDL for OGC review.
         Expected completion date: September 30, 2006.
A07D0002 Audit of the Talent Search Program at Case Western Reserve University (SAR 47,        7/11/03    $212,428         5
         pg. 14)
         Status: OCFO/PAG informed us it is awaiting additional support documentation
         from the auditee. Expected completion date: June 30, 2006.




                                                               37
                                                                                   Semiannual Report To Congress: #52

Table 6: Unresolved Reports Issued Prior to October 1, 2005 (Cont.)
                                                                                                            Total        No. of
 Report                                     Report Title                                        Date      Monetary     Recommen-
 Number                  (Prior Semiannual Report [SAR] Number and Page)                       Issued     Findings       dations
OESE
A0190006 Puerto Rico Department of Education Needs Major Improvements in Its                   9/27/00    $181,305        18
         Administration of the Even Start Program (SAR 41, pg. 22)
         Status: No change in status. OESE previously informed us that a CAROI team is
         resolving the audit.
A01A0004 Puerto Rico Department of Education Did Not Administer Properly a $9,700,000          3/28/01    $7,841,493      14
         Contract with National School Services of Puerto Rico (SAR 42, pg. 21)
         Status: No change in status. OESE previously informed us that a CAROI team is
         resolving the audit.
A0250200 The Puerto Rico Department of Education Must Institute a Time Distribution            11/14/97                    1
         System (SAR 36, pg. 13)
         Status: No change in status. OESE previously informed us that a CAROI team is
         resolving the audit.
A02B0012 Puerto Rico Department of Education Did Not Administer Properly Title I               9/28/01    $8,412,280      10
         Contracts with National School Services of Puerto Rico for the 1999/2000 and
         2000/2001 School Years (SAR 43, pg. 11)
         Status: No change in status. OESE previously informed us that a CAROI team is
         resolving the audit.
A02B0025 Puerto Rico Department of Education Did Not Administer Properly Three                 9/12/02    $2,146,023      10
         Contracts with R.V. Research and Management Group, Inc. (SAR 45, pg. 18)
         Status: No change in status. OESE previously informed us that a CAROI team is
         resolving the audit.
A02C0017 Puerto Rico Department of Education's Administration of Contracts with the            6/10/03    $115,390         5
         League of United Latin American Citizens National Educational Service Center
         (OVAE also designated as action official for this report) (SAR 47, pg. 15)
         Status: No change in status. OESE previously informed us that a CAROI team is
         resolving the audit.
A02D0014 Puerto Rico Department of Education's Title I Expenditures for the period July 1,     3/30/04     $49,536         9
         2002, to December 31, 2002 (see note 4) (SAR 48, pg. 17)
         Status: No change in status. OESE previously informed us that a CAROI team is
         resolving the audit.
A02D0023 Puerto Rico Department of Education's Salaries for the period July 1, 1999, to June    6/2/04                     6
         30, 2003 (SAR 49, pg. 14)
         Status: No change in status. OCFO/PAG previously informed us that the audit was
         reassigned to OESE on April 13, 2005.
A02E0007 Puerto Rico Department of Education's Administration of Contracts Awarded to           9/8/04    $3,354,545       2
         Rock Solid Technologies (SAR 49, pg. 15)
         Status: No change in status. OESE previously informed us that the audit is in
         CAROI.
A02E0019 Puerto Rico Department of Education's Migrant Education Program (SAR 50, pg.          3/30/05     $43,824         5
         22)
         Status: No change in status. Previously, the audit was placed on administrative
         stay on 8/18/2005 and the audit is in CAROI.
A04E0002 Georgia Department of Education's Administration of Title I, Part A of the ESEA       11/8/04                     8
         (SAR 50, pg. 22)
         Status: OESE informed us that the audit continues on administrative stay.




                                                               38
                                                                                    Semiannual Report To Congress: #52

Table 6: Unresolved Reports Issued Prior to October 1, 2005 (Cont.)
                                                                                                             Total        No. of
 Report                                     Report Title                                         Date      Monetary     Recommen-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                         Issued     Findings       dations
A05C0012 Audit of East Cleveland City Schools' Administration of the 21st Century               9/18/02     349,637          9
         Community Learning Centers Grant at Kirk Middle School for the period June 1,
         1998, through December 31, 2001 (SAR 45, pg. 18)
         Status: OESE submitted an administrative stay request on 3/24/2006 and OCFO/
         PAG approved the request on 3/30/2006. However, the anticipated resolution date
         of this audit was 3/18/2006.
A06E0008 Audit of the Title I Funds Administered by the Orleans Parish School Board for the     2/16/05 $73,936,273         7
         period July 1, 2001, through December 31, 2003 (SAR 50, pg. 23)
         Status: AARTS data: the administrative stay was extended on 1/4/2006 and on 3/
         13/2006.
A06E0012 Audit of the Title I Funds Administered by the Caddo Parish School District, for the   12/7/04    $488,314         1
         period July 1, 2001, through December 31, 2003 (SAR 50, pg. 23)
         Status: OESE informed us that the audit was placed on administrative stay while
         Louisiana is coping with the hurricane. However, the anticipated resolution date of
         the audit was 6/7/2005.
A06E0017 Title I funds Administered by the Beauregard Parish School District, for the period    12/16/04   $540,443         5
         July 1, 2001, through December 31, 2003 (SAR 50, pg. 23)
         Status: OESE informed us that the audit was placed on administrative stay while
         Louisiana is coping with the hurricane. However, the administrative stay request
         was submitted after the anticipated resolution date of 6/16/2005.
OPE
A07B0011 Audit of Valencia Community College's Gaining Early Awareness and Readiness             5/8/03    $1,822,864       5
         for Undergraduate Programs Matching Requirement (SAR 47, pg. 15)
         Status: OPE informed us that it continues to work with OGC on one outstanding
         issue.
OSDFS
A0190007 Puerto Rico Department of Education Needs Major Improvements in its                 9/27/00        $82,452        17
         Administration of the Governor's Safe and Drug-Free Schools Program (SAR 41,
         pg. 22)
         Status: No change in status. OSDFS previously informed us that the audit is being
         resolved as part of the CAROI settlement.
A09E0025 California Department of Education's Compliance with the Unsafe School Choice 3/24/05                              7
         Option Provision (SAR 50, pg. 23)
         Status: OSDFS informed us that a PDL was issued on 3/31/2006, but that the
         required documentation for resolution of the audit was not available in AARTS as of
         3/31/2006.
OSERS
A02B0014 Audit of the Puerto Rico Vocational Rehabilitation Administration (SAR 45, pg.    6/26/02 $15,800,000              5
         18)
         Status: OSERS informed us that OSERS is drafting thePDL based on information
         gathered during a recent site visit.
A02D0020 Puerto Rico Department of Education's Special Education Expenditures for the      3/30/04  $122,901                9
         period July 1, 2002, to December 31, 2002 (see note 5) (SAR 48, pg. 18)
         Status: No change in status. OSERS previously informed us that the audit is being
         resolved through CAROI team effort.
A02E0009 Puerto Rico Department of Education's Special Education Program Services (SAR 12/14/04 $5,935,988                  3
         50, pg. 23)
         Status: OSERS informed us that the audit is being resolved through CAROI team
         effort.



                                                                39
                                                                                   Semiannual Report To Congress: #52

Table 6: Unresolved Reports Issued Prior to October 1, 2005 (Cont.)
                                                                                                         Total        No. of
 Report                                       Report Title                                    Date     Monetary     Recommen-
 Number                    (Prior Semiannual Report [SAR] Number and Page)                   Issued    Findings       dations
  Note 1 - Audit Report A02E0031 identified recommended adjustments of $5,913,394.
  Note 2 - Audit Report A06E0018 reported that $1,000 related to a check writing error was recovered during the audit. This money
         was not included in questioned or unsupported costs.
  Note 3 - We identified $327,577 in one-time better use of funds in audit A02E0020.
  Note 4 - We identified $151,205,677 in better use of funds in audit A02D0014.
  Note 5 - We identified $79,515,522 in better use of funds in audit A02D0020.

Table 7: Statistical Profile : October 1, 2005, to March 31, 2006
                                                                                                            Six-month Period
                                                                                                             Ending 3/31/06
OIG AUDIT REPORTS ISSUED                                                                                                     39
Questioned Costs                                                                                                     $1,513,042
Unsupported Costs                                                                                                    $5,630,813
Recommendations for Better Use of Funds                                                                             $10,000,000
OTHER OIG PRODUCTS                                                                                                           21
(Inspections, Attestations, Interim Audit Memoranda, Alert Memoranda, Closeout Memoranda/Letters,
Management Information Reports, Pre-award Attest Services Memoranda and Other Agency Reporting)
OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS                                                                               42
Questioned Costs Sustained                                                                                           $2,790,309
Unsupported Costs Sustained                                                                                          $1,557,853
Additional Disallowances Identified by Program Managers                                                                      $0
Management Commitment to the Better Use of Funds                                                                     $7,919,067
INVESTIGATIVE CASE ACTIVITY
Cases Opened                                                                                                                111
Cases Closed                                                                                                                 39
Cases Active at End of Period                                                                                               375
Prosecutorial Decisions                                                                                                     137
 -Accepted                                                                                                                   88
 -Declined                                                                                                                   49
INVESTIGATION RESULTS
Indictments/Informations                                                                                                     44
Convictions/Pleas                                                                                                            62
Fines Ordered                                                                                                           $37,053
Restitution Payments Ordered                                                                                         $3,346,702
Civil Settlements/Judgments (#)                                                                                                0
Civil Settlements/Judgments ($)                                                                                                0
Recoveries                                                                                                             $568,154
Forfeitures/Seizures                                                                                                   $427,050
Savings                                                                                                                $516,391




                                                              40
U.S. Department of Education
Margaret Spellings
Secretary


Office of Inspector General
John P. Higgins, Jr.
Inspector General


Counsel to the Inspector General
Mary Mitchelson


May 2006


This report is in the public domain. Authorization to reproduce it in whole or in part is granted. While
permission to reprint this publication is not necessary, the citation should be: U.S. Department of Educa-
tion, Office of Inspector General, Semiannual Report to Congress, No. 52.

To order copies of this report:

   •   Write to: ED Pubs, Education Publications Center, U.S. Department of Education, P.O. Box
       1398, Jessup, MD 20794-1398; or

   •   Fax your request to: (301) 470-1244; or

   •   E-mail your request to: edpubs@inet.ed.gov;

   •   Call in your request toll-free: 1-877-433-7827 (1-877-4-ED-PUBS). If 877 service is not yet
       available in your area, call 1-800-872-5327 (1-800-USA-LEARN). Those who use a telecom-
       munications device for the deaf (TDD) or a teletypewriter (TTY) call 1-877-576-7734; or

   •   Order online at: www.edpubs.org/webstore/Content/search.asp

On request, this publication is available in alternate formats, such as Braille, large print, or computer
diskette. For more information, please contact the Department’s Alternate Format Center at (202) 260-
0852 or (202) 260-0818.

Please Note:
The Inspector General’s Semiannual Report to Congress, No. 52 and reports discussed herein are
available on the ED/OIG Web site at : www.ed.gov/about/offices/list/oig.
Anyone knowing of fraud, waste, or abuse involving Department of Education funds
    or programs should call, write, or e-mail the Office of Inspector General.



                                Call toll-free:
                        The Inspector General’s Hotline
                      1-800-MIS-USED (1-800-647-8733)


                                    Or Write:
                          Inspector General’s Hotline
                          Office of Inspector General
                         U.S. Department of Education
                              550 12th Street, SW
                          Washington, DC 20202-1500


                                    Or e-mail:
                               oig.hotline@ed.gov

             Your report may be made anonymously or in confidence.

                 For information on identity theft prevention
                       for students and schools, visit the


              Office of Inspector General Identity Theft Web site at:
                              www.ed.gov/misused




              Our mission is to ensure equal access to education
         and to promote educational excellence throughout the nation.
                                 www.ed.gov
